<html>
<title> - FOREST SERVICE BUDGET</title>
<body><pre>[Senate Hearing 111-391]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-391
 
                         FOREST SERVICE BUDGET

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   TO

 CONSIDER THE PRESIDENT'S PROPOSED BUDGET FOR FISCAL YEAR 2011 FOR THE 
                             FOREST SERVICE

                               __________

                           FEBRUARY 24, 2010


                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
56-124                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     8
Tidwell, Chief, Tom, Forest Service, Department of Agriculture...     1

                                APPENDIX

Responses to additional questions................................    31


                        FOREST SERVICE BUDGET

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 2010

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:34 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Jeff 
Bingaman, chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. I guess we should go ahead and start.
    I'm informed that Senator Murkowski will be here in a few 
minutes, but had to have some conversations on the floor before 
coming back to the--coming to the hearing.
    So, let me make a short statement, and then I'll call on 
Chief Tidwell to give his statement, and then we'll interrupt 
things for Senator Murkowski's statement when she arrives.
    This hearing is to consider the President's proposal for 
the Forest Service's fiscal year 2011 budget.
    First, we'd like to welcome Chief Tidwell back to the 
committee. Appreciate his willingness to testify today, and 
apologize for the delay that's caused by the Senate's votes.
    Keeping in mind that the budget's tight and that this 
proposal includes an overall decrease in the Forest Service 
budget, in other respects I believe this is a strong proposal, 
and there is much to like about what is proposed. It includes 
significant improvements in funding for wildfire activities; a 
significant proposal to integrate funding to focus on forest 
and watershed restoration; a new Priority Watersheds and Job 
Stabilization Initiative. I also commend the administration for 
its proposal to fully fund the Forest Landscape Restoration 
Act, and for its interest in an open dialog with members of 
this committee to further develop the new proposals that are 
included in the budget.
    I will have several question after we hear from Chief 
Tidwell, but why don't you go right ahead.

STATEMENT OF TOM TIDWELL, CHIEF, FOREST SERVICE, DEPARTMENT OF 
                          AGRICULTURE

    Mr. Tidwell. Mr. Chairman, thank you.
    Today, with me, I have Kathleen Atkinson, our budget 
director with me, that--if we need to get into some of the 
budget details, she's here to assist with that.
    Mr. Chairman, you know, it's a privilege to be here today 
to discuss the President's budget for the Forest Service. You 
know, I appreciate the support this committee has shown the 
Forest Service in the past, and I look forward to working with 
the committee to provide more of the things that Americans need 
and want from their Nation's forests and grasslands.
    The President's budget request is designed to support the 
administration's priorities, Secretary Vilsack's priorities, 
for maintaining and increasing the resiliency of America's 
forests. The budget supports these priorities through five key 
objectives:
    The first one, is to restore and sustain the forest and 
grasslands by increasing collaborative efforts to build support 
for the restoration activities that we need to accomplish on 
the landscape. The budget requests full funding, $40 million, 
for the collaborative Forest Landscape Restoration Fund. It 
also proposes an integrated resource restoration budget line 
item, that would really help us--will facilitate taking 
integrated approach to developing project proposals that will 
optimize multiple benefits.
    Second, it increases the emphasis on protecting and 
enhancing water resources and watershed health, with a request 
of $50 million for a new Priority Watershed and Job 
Stabilization Initiative. This would be a pilot program, where 
we would fund large-scale projects that focus on watershed 
restoration and job creation, and will be developed in a 
collaborative manner. We would use the Statewide assessments, 
where available, and our own watershed assessments, look at the 
number of jobs that would be created and the opportunity for 
biomass utilization as some of the selection criteria for this 
pilot program.
    The third objective is that we will manage landscapes to be 
more resilient to the stresses of climate change. We'll do that 
by applying the science that's developed by Forest Service 
research to increase the adaptive capacity of ecosystems. We'll 
also use that science to determine how our management needs to 
change to be able to increase the ecosystem's resistance to the 
increasing frequency of disturbance events, like fire, insect 
and disease outbreaks, invasives, flood, and drought.
    The fourth key objective is, this budget request provides 
for full funding for wildland fire suppression, and that 
includes a preparedness level to continue our success to be 
able to suppress 98 percent of wildland fires during initial 
attack. It also proposes a realignment of preparedness and 
suppression funds that more accurately display the true costs 
of our preparedness. It provides for a FLAME fund to increase 
the accountability and transparency for the cost of large 
fires. It also provides for a contingency reserve fund that 
will significantly reduce the need to transfer funds from 
critical--from other critical programs to fund fire suppression 
if we do have a very large, active fire season. Then it also 
increases the emphasis of hazardous field projects to reduce 
the threat of wildfire to homes and communities by doing more 
this work in the wildland-urban interface.
    The last key objective is to focus on creating jobs and 
increasing economic opportunities in rural communities. We will 
do this with our proposed Priority Watershed and Job 
Initiative, doing more of our work through stewardship 
contracting, building off the American Recovery and 
Reinvestment Act projects that encourage biomass utilization; 
continue to work with the States to use our State and private 
forestry programs to address conservation across all lands; and 
through job development with our 28 job corps centers, and our 
partnership with the Department of Labor, and our partnership 
with Youth Conservation Corps across this country.
    Our goal is to increase the collaborative efforts to build 
support for science-based landscape-scale conservation, taking 
an all-lands approach to conservation to build a restoration 
economy which will provide jobs and economic opportunity for 
communities across this Nation.
    Again, thank you for the opportunity to address the 
committee, and I look forward answering your questions.
    [The prepared statement of Mr. Tidwell follows:]

Prepared Statement of Tom Tidwell, Chief, Forest Service, Department of 
                              Agriculture

    Mr. Chairman and members of the committee, it is a privilege to be 
here today to discuss the President's Budget request for the Forest 
Service in fiscal year (FY) 2011. I appreciate the support this 
committee has shown the Forest Service in the past, and I look forward 
to collaborating in the future to provide more of the things the 
American people want and need from our Nation's forests and grasslands. 
I am confident that this budget will enable the Forest Service to do 
just that.
    Our Nation's forests and grasslands, both public and private, are 
social, economic, and environmental assets. They provide many ecosystem 
services on which society relies, including clean water, scenic beauty, 
outdoor recreation, fish and wildlife habitat, natural resource jobs, 
forest products, renewable energy, carbon sequestration, and more. In 
pursuit of these and other services, the Forest Service manages 193 
million acres on 155 national forests and 20 grasslands. In addition, 
to help improve stewardship of lands outside the National Forest 
System, the agency partners with and provides technical assistance to a 
range of other Federal agencies as well as State, local, and Tribal 
governments, private landowners, and nonprofit organizations. The 
agency also engages in cutting-edge research on climate change, 
wildfires, forest pests and diseases, ecological restoration, and a 
range of other conservation issues.
    The Budget reflects the President's priorities and Secretary of 
Agriculture Tom Vilsack's vision for restoring and enhancing the 
resilience and productivity of America's forests. In accordance with 
our mission of sustaining the health, diversity, and productivity of 
the nation's forests and grasslands, the Forest Service is taking an 
all-lands approach, working across boundaries and ownerships to address 
the critical issues facing our Nation's forest and grassland ecosystems 
on a landscape scale. Further, the budget proposes to integrate Forest 
Service programs in a new way that will better position the agency to 
tackle long-standing and urgent forest health, wildlife, forest 
restoration, and community vitality needs.
    The President's Budget request for the Forest Service for FY11 
totals $5.38 billion in discretionary appropriations, a $61 million 
increase over the FY10 enacted level. The Budget reflects a new and 
significant shift in the way the agency will address forest management 
on National Forest System (NFS) lands. The President's Budget focuses 
Forest Service resources to support more watershed and ecosystem 
improvement efforts based upon a variety of management actions, 
including mechanical removal of timber, road decommissioning, and 
wildlife habitat improvement. The Budget adopts an ecosystem-based 
approach to forest management that focuses on enhancing forest and 
watershed resiliency, preventing the loss of large carbon sinks, and 
maintaining jobs. To address the need to protect forest resources and 
wildlife habitat in an era of global climate change, the Budget 
establishes a pilot program for long-term, landscape scale restoration 
activities that emphasize resiliency, health, and sustainable economic 
development.

Ecological Restoration
    In FY 2011, the Forest Service will work to meet the challenge of 
restoring healthy, resilient ecosystems capable of delivering the 
ecosystem services that Americans depend upon, especially clean and 
abundant water. The Administration proposes restructuring the Forest 
Service budget as a key step that will allow us to focus more on high 
priority restoration work. The new budget line item, Integrated 
Resource Restoration, will combine the Forest Products, Vegetation and 
Watershed Management, and Wildlife and Fisheries Management budget line 
items. The FY 2011 budget proposes $694 million for Integrated Resource 
Restoration work under this line item.
    We believe this new line item better reflects much of the current 
work we do and, even more importantly, better forecasts the future 
direction we need to take to achieve ecological restoration work. The 
agency will integrate traditional timber activities predominately 
within the context of larger restoration objectives, focusing on 
priority watersheds in most need of stewardship and restoration work, 
pursuing forest products when they support watershed, wildlife, and 
restoration goals. We will also greatly expand the use of the 
stewardship contracting authority to meet restoration objectives and 
build in longer-term contracting certainty for communities and the 
private sector to invest in the kind of forest restoration 
infrastructure we will need to achieve these objectives.
    The new budget line item consists of three activities: $604 million 
for Restoration and Management of Ecosystems, $40 million for the 
Collaborative Forest Landscape Restoration Act (CFLRA), and $50 million 
for Priority Watersheds and Job Stabilization. Projects under the 
second two will be selected through a national competitive process and 
are discussed below. The $604 million for Restoration and Management of 
Ecosystems will be allocated in part based on the number of smaller 
watersheds (6th level hydrological unit codes, which average 10,000 
acres) in critical need of restoration, while a substantial portion of 
the funds will be used to fund restoration activities across the 
National Forest System. This will allow National Forests to focus local 
projects on improving watershed condition while continuing to carryout 
critical, ongoing ecological restoration work. While we have not worked 
out the specifics for allocating these funds, I am convinced that this 
multi-pronged approach will improve our ability to achieve restoration 
and watershed improvement at various scales--from landscape level work 
under the nationally selected projects under CFLRA and the Priority 
Watersheds initiatives to work within individual NFS watersheds in need 
of critical restoration--while allowing the Forest Service to place 
greater focus on improving watersheds without forgoing critical ongoing 
restoration efforts. We look forward to working with the committee as 
we explore the best way to allocate these funds.

Collaborative Forest Landscape Restoration Fund
    The FY11 President's Budget requests $40 million to fund ecosystem 
restoration under the Forest Landscape Restoration Act of 2009, the 
maximum amount authorized under the Act. Restoration treatments will 
focus on reducing the risk of catastrophic wildfire, improving 
watershed conditions, and building resilience to climate change on 
large landscapes greater than 50,000 acres. Through the Collaborative 
Forest Landscape Restoration Program, the Forest Service will use 
federal funding to leverage local resources, engaging partners in 
collaborative restoration efforts on a landscape scale. Potential 
projects will be developed and proposed through multi-stakeholder 
collaborative planning, and will be selected by the Secretary of 
Agriculture, as advised by a Federal Advisory Committee. Proposals must 
have a substantially complete restoration strategy, be primarily 
composed of National Forest System land, and be on lands accessible by 
wood-processing infrastructure. The $50 million priority watersheds 
initiative and the CFLRF will provide perfect complement to each other 
within the Integrated Resource Restoration line item, enabling the 
agency to target management to the diversity of landscape, forest, and 
community needs. In FY11, the Forest Service would fund 10 projects at 
$4 million each through CFLRF. No more than two proposals will be 
selected for funding in any one Region of the NFS.

Priority Watersheds and Job Stabilization
    Perhaps the most important service that Americans get from wildland 
ecosystems has to do with a basic human need: water. Nearly 53 percent 
of the Nation's freshwater supply originates on public and private 
forest lands, and more than 200 million people rely for their daily 
drinking water on forests and grasslands. Watersheds in good health 
provide good water quality, and watersheds that deliver plentiful 
supplies of pure, clean water also deliver a full range of other 
services that people need-soil protection, carbon storage, wildlife 
habitat, opportunities for outdoor recreation, and more.
    In FY 2011, the Forest Service proposes to invest $50 million under 
the new Integrated Resource Restoration program in Priority Watersheds 
and Job Stabilization. Under this initiative, the agency will assess 
the health of all of its watersheds, carry out forest restoration in 
national priority watersheds, and then focus on job creation by 
utilizing stewardship contracts and putting youth to work in rural 
areas. This initiative complements the work to be accomplished under 
the Collaborative Forest Landscape Restoration Fund (CFLRF). These 
watersheds will be identified and prioritized using State Forest 
Assessments, watershed conditions, costs and input from local 
communities. Projects will be selected in areas greater than 10,000 
acres. Through this process, the Forest Service will work 
collaboratively to maintain or improve water quality and watershed 
function, improve habitat for fish and wildlife, and create local jobs 
in forest-based communities.
    Attached to the end of this statement is a list of the 12 
indicators that we plan on using to assess the health of our watersheds 
under this initiative. Fire regime condition class and percent 
vegetative cover are two examples. These Watershed Condition Indicators 
are diagnostic indicators of the health and trend of various 
biological, chemical, and physical components of aquatic systems and 
associated terrestrial uplands. The indicators represent the processes 
or mechanisms by which management actions can potentially affect 
watersheds, the species which inhabit them, and their riparian 
functions and ecological processes.
    This initiative will yield the following results by the end of FY 
2011.

  <bullet> Funding for projects that will improve the watershed 
        condition class of approximately 100 NFS watersheds that are 
        important to the public.
  <bullet> Approximately 20 ten-year stewardship contracts offered in 
        targeted areas around the Country that would provide a steady 
        supply of forest products.
  <bullet> Over 1,000 jobs created, including a focus on jobs for youth 
        in rural areas.
  <bullet> A map depicting the condition of the National Forest 
        System's approximately 12,000 highest priority watersheds at 
        the start of FY 2011.
  <bullet> A map depicting the locations and approximate quantities of 
        the biomass that NFS intends to make available over the next 
        ten years.
  <bullet> Experience with an alternative to litigation through the 
        piloting of a new Appeals process.

Responding to Climate Change
    Broad scientific consensus confirms that global climate change is 
real and that the impacts are altering forests and grasslands, 
increasing the frequency of disturbance events and diminishing the 
ecosystem services they provide. Some of the most urgent forest and 
grassland management problems of the past 20 years-wildfires, changing 
water regimes, and expanding forest insect infestations-have been 
driven, in part, by a changing climate; future impacts are likely to be 
even more severe.\1\ Because America's forests and grasslands are vital 
to our nation, the Forest Service program of work in FY11 will focus on 
making ecosystems more resistant to climate-related stresses and more 
resilient to changing conditions. Helping ecosystems adapt to both 
current and future climates will ensure that they continue to provide 
the ecosystem services that Americans want and need, including 
sequestration of the heat-trapping gases that are the main cause of 
global warming.
---------------------------------------------------------------------------
    \1\ Backlund, P.; Janetos, A; Schimel, D., lead authors. 2008. The 
effects of climate change on agriculture, land resources, water 
resources, and biodiversity in the United States. Final report, 
synthesis and assessment product 4.3 A report by the U.S. Climate 
Change Science Program and the Subcommittee on Global Change Research, 
Washington, DC. 342 p.
---------------------------------------------------------------------------
    The President's Budget will go a long way in supporting and 
reinforcing the importance of managing forests and grasslands to 
respond and adapt to changing climate. Our new Integrated Resource 
Restoration line item is built partially around the notion that we need 
to adapt to climate change and will provide an outlet for 
implementation of forest level climate action plans. Further, I'd like 
to draw your attention to a very small but significant $2 million 
investment in Urban and Community forests that will result in 
significant and direct climate benefits by planting trees in the right 
places in our communities to help sequester carbon and reduce heating 
and cooling costs. This cost-share program will make use of a 
prioritization system to maximize the tons of carbon removed from the 
atmosphere per federal dollar spent.

Fuels and Forest Health Treatments
    During the average fire season from 2000 to 2009, about 1.3 million 
acres under Forest Service protection have burned. Communities 
expanding into the wildland/urban interface (WUI) are compounding the 
challenges of suppressing wildfire and highlighting the need to focus 
treatments in the WUI. The Forest Service has a major role to play in 
reducing the threat of wildfire to homes and communities by reducing 
hazardous fuels and restoring forest and grassland health.
    In FY11, the Forest Service will direct $349 million to reducing 
hazardous fuels, treating 1.6 million acres in the WUI. The agency will 
focus areas for treatment in partnership with communities using their 
community wildfire protection plans (CWPP), resulting in a doubling of 
the acres to be treated in areas identified in CWPPs over what is 
planned for FY 2010. This intense focus on the WUI is part of the 
initiative to responsibly budget for fires. Fires in the interface 
present the greatest risk to communities and firefighters, are the most 
expensive, and are the most complex to suppress. By treating high-
priority areas in the WUI, the Forest Service will reduce the threat of 
large wildfires and increase the effectiveness of suppression actions, 
thereby protecting communities, reducing risks to firefighters and the 
public, and lowering the costs of large wildfires.

Fire Suppression and Preparedness
    The FY11 President's Budget request continues to reflect the 
Presidential urgency to responsibly budget for wildfire. It provides 
$2.4 billion for managing wildland fire, including a more accurate 
accounting of preparedness costs while continuing full funding of the 
10-year average for suppression costs. To enhance accountability for 
fire suppression, the budget proposes managing fire suppression by 
establishing three separate accounts. All fire suppression costs would 
be paid out of the fire suppression account, initially funded at $595 
million. This level would cover the costs of initial and smaller 
extended attack operations consistent with our target of maintaining a 
98 percent success rate. In addition, the budget requests $291 million 
for the FLAME account. Funds from this account would be available for 
larger, more complex fires that escape initial attack. The budget 
outlines a new approach to risk management and fire spending 
accountability, including the process for FLAME funds availability, 
requiring a formal risk decision by the Secretary of Agriculture before 
funds can be transferred from FLAME into the suppression account.
    In addition to fully covering the anticipated suppression costs, 
$282 million is proposed for a Presidential Wildland Fire Contingency 
Reserve. These funds would be available if the Nation experiences an 
exceptional fire season and the Forest Service anticipates exhausting 
the amounts appropriated for both the suppression and FLAME funds. The 
Presidential Contingency account reduces the risk that the Forest 
Service would need to borrow from other programs to pay for the costs 
of fire suppression. In such an event, increased accountability for 
fire spending requires a Presidential Declaration certifying the Forest 
Service is operating in an effective and accountable manner with all 
funds previously released before Contingency Funds would be made 
available. The FLAME and Presidential Contingency accounts complement 
each other in providing a higher level of accountability for fire 
spending and reducing the risk that funds will need to be transferred 
from other mission critical programs to support the costs of fire 
suppression.
    I would like to thank the members of this committee and their 
colleagues for the work they put in this past year in crafting and 
passing legislation for the FLAME Wildfire Suppression Reserve Fund for 
the Forest Service. In the past, large fire seasons have resulted in 
funding transfers from other Forest Service accounts to the detriment 
of critical Forest Service work. Funding of the FLAME Wildfire 
Suppression Reserve Fund and the Presidential Wildland Fire Contingency 
Reserve in the FY11 budget will enable critical Forest Service 
activities to proceed, including fuels and forest health treatments in 
the wildland-urban interface (WUI).
    The FY11 budget also contains a significant change by realigning 
Preparedness and Suppression funding, shifting readiness costs from the 
Suppression account into Preparedness. This structure provides better 
transparency by realigning costs that were shifted into the Suppression 
account beginning in FY 2005. Consistent with congressional direction, 
these program readiness costs have been moved back into the 
Preparedness with no net change in resource availability from FY10. In 
sum, the President's Budget will promote safe, effective, and 
accountable outcomes from investments made in managing fire on a 
landscape scale.

Thriving Rural Communities
    The Secretary's vision for 2010 and beyond calls for building a 
forest restoration economy that generates green jobs and rural 
prosperity. In FY11, the Forest Service will continue to develop new 
ways of bringing jobs and economic activity to rural communities. The 
agency will build on 2 years of funding and project success under the 
American Recovery and Reinvestment Act (ARRA) of 2009. ARRA projects 
bring jobs and economic stimulus to areas hit hardest by the national 
recession, including many forest-based communities. For example, the 
ARRA-funded Huron Fuels Reduction project in northeastern Michigan has 
brought $3.9 million to an area hit hard by the economic recession, and 
created over 50 jobs on fuels reduction crews for unemployed or 
underemployed members of the local communities. Many ARRA projects 
address high-priority forestry needs, such as fuels and forest health 
treatments and biomass utilization. Our involvement has helped to 
stimulate collaborative efforts related to restoration, climate change, 
fire and fuels, and landscape-scale conservation.
    The Forest Service will also play an important role in providing 
expertise to landowners in forest-based communities to help sustain the 
economic viability of forest stewardship. In addition, an increased 
focus on restoration, particularly in priority watersheds, will lead to 
the creation of more jobs in forest-based communities to carry out this 
high-priority work.

Conclusion
    The President's Budget request for FY 2011 addresses the stresses 
and disturbances, partly caused by climate change, that pose challenges 
to the health of America's forests and grasslands. We will respond with 
treatments to priority watersheds identified in a science-based 
approach and restore their health to enhance their capacity in 
delivering ecosystem services that Americans want and need. Our 
restoration treatments will be on a landscape scale, taking an all-
lands approach looking across landownership boundaries to solve 
problems to conservation based on collaboration with State, Tribal, 
local, private, and other Federal stakeholders to achieve mutual goals. 
The Forest Service stands ready, working in tandem with other USDA 
agencies through this budget, to bring health to our forests and 
enhance the economic vitality of communities. The budget request does 
not include any funding for any new road construction, allowing us to 
focus on maintaining existing high-clearance and closed roads. We are 
using the Travel Management Planning process to guide our efforts in 
right-sizing the Agency's road system. The President's Budget for the 
USDA Forest Service also contains funding for many other important 
items, such $50 million for the Legacy Roads program to help improve 
water quality and stream conditions, and an increase in the recreation 
budget that will help rural economies while creating opportunities to 
reconnect people to forest lands. I look forward to sharing more with 
you about the budget and working with you to see many of those budget 
proposals take shape.
    Thank you for your time, and I look forward to answering your 
questions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      

    The Chairman. Thank you very much.
    Senator Murkowski.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    I apologize that I wasn't here when you opened. I want to 
thank you for scheduling the hearing.
    I want to welcome you, Chief Tidwell. Appreciate your 
comments here. I also want to thank you, and thank your Deputy 
Under Secretary, Mr. Jensen, for the efforts that you have made 
to help the mill in Ketchikan have a chance to test some of the 
theories on how we can best convert to second-growth forest-
products economy there in the Tongass National Forest.
    Having said that, I think it is absolutely vital--
absolutely vital that you and the Department understand that I 
am not convinced that the transition can occur in a single 
year. In fact, I suspect that this transition, in order to be 
complete, is going to take several decades. In the meantime, 
you and I must ensure that the remaining forest products 
industry in southeast Alaska survives to enjoy this transition. 
We simply cannot afford to spend 3 to 10 years studying how we 
make the transition. We need to make immediate--immediate 
traditional timber sales, as well as the second-growth sales, 
to support the few remaining operations. We need them now. We 
need them this spring.
    While I appreciate what you and the Deputy Under Secretary 
have committed to getting done, we need to make some real 
progress. The agency needs to make real progress. I don't have 
time, and I don't think you have time, to wait for the Tongass 
roundtable to come to consensus on how we manage the Tongas 
National Forest. You've got a forest plan that has been 
sanctioned by the courts, and it's time that you direct your 
regional forester, your forest supervisor, to really get it 
implemented. Let's get it done.
    While we're going through this whole budget proposal that 
we have in place, we've got yet another forest products company 
that faces having to auction off its equipment just to pay the 
bill on a month-to-month basis.
    So, I want to make sure that you understand that if you 
allow the few remaining mills in Alaska to die off, there will 
be no timber program on the Tongass. When that occurs, in my 
mind, there's less need for the Forest Service offices there in 
Alaska. If we don't have a timber program, why do we need the 
offices?
    I also want to mention a couple of other issues, and I will 
utilize the question period to raise some other concerns. I 
need to know from you whether the Forest Service and the 
Department intend to honor the court settlement on roadless 
lands on the Tongass, which is memorialized in the Tongass land 
management plan, or whether you attempt--you intend attempt to 
wrap the Tongass back into some larger national roadless area 
rule.
    Part of the agency's budget request is a proposal to do 
away with the forest products funding that support the 
commercial timber sale program. In briefings, both the Deputy 
Under Secretary and your staff indicated that only those sales 
that generated a net positive return against the cost of 
planning, preparing, and selling the commercial timber sales 
would be funded in the budget. We were told that commercial-
sized timber would be offered through the stewardship 
contracting efforts, which you've mentioned. I suspect you've 
been directed to stop preparing what were classically called 
``below-cost timber sales.''
    But, I am puzzled that the chief of an agency who has but 
only one program--and that's the ski area management--that 
returns a positive net return to the Treasury, would go down 
the path of requiring an above-cost criterion on any program. I 
think the agency's opening the door for Congress to demand that 
all the Forest Service programs be above cost, which would 
virtually abolish the agency. For that matter, you and I know 
that there's never been--there's never been an above-cost 
stewardship contract. So, even if this criterion is not 
applied, I'm at loss to understand how you could possibly 
undertake a stewardship contract, when your budget request 
eliminates all funding for the necessary new road construction 
or road improvements.
    Having said all that, you certainly have my empathy, Chief 
Tidwell, for having to be the person to have to come before the 
committee to defend your budget and the proposals that are 
contained in it. I hope that you will communicate back to the 
Department, to the Office of Management and Budget, how 
disappointed I am. I truly wish you the best of luck in 
managing the Forest Service through these very trying times. I 
thank you for your willingness to work with us, but I think you 
hear the concern in my words this morning.
    With that, Mr. Chairman, I thank you for the time.
    The Chairman. Thank you.
    Let me ask a few questions and then defer to Senator 
Murkowski for some of her questions.
    You make reference, in your testimony, to the FLAME fund, 
this reserve fund that was recently passed in legislation. But, 
there's some confusion on my part about the budget. It seems to 
ignore half of the purpose that we set out in the legislation; 
instead, it proposes to create a duplicative reserve fund in 
place of the FLAME reserve fund. Am I just confused on that, or 
how do you see that? What are you proposing in your budget as 
it relates to the legislation we passed?
    Mr. Tidwell. Senator, first of all I want to thank you and 
the committee for your support to get the FLAME legislation 
passed. It--I think it did--it brought attention to this issue, 
to help get it resolved, and that's where we are with the--our 
2010 budget. So, I want to thank you for that effort.
    With our budget, fire suppression, we have--there's 3, kind 
of, suppression accounts. The first one is our suppression 
account that we're going to be using for initial attack in our 
small fires. These are generally less than, say, 300 acres. 
That's the--our initial-attack fire-suppression budget 
proposal.
    Then, when we have a large fire--and these are the fires 
that usually we have to bring in the overhead team, a Type 1 or 
a Type 2 overhead team--larger fires. We want to use the FLAME 
account to be able to fund those large fires. Before we would 
transfer funds from the FLAME account into this suppression--
this initial-attack suppression account, we would develop a 
risk assessment that would show that we're using best science, 
the best information, the best expertise we have about the 
strategies we're going to use, and then to be able to use that 
to ensure that there is adequate level of accountability, 
oversight, and transparency with the cost of these large fires. 
So, it will be very clear to be able to see what the costs of 
our large fires are, because you would be able to see that as 
we transfer funds from the FLAME account.
    If we have a moderate fire season, that'll work fine. But, 
if we get the situation where we've had in the past, where we 
could have a very active fire season, where the suppression 
costs would go beyond what we have in these two suppression 
accounts, the contingency reserve is there so that we can 
request those funds through--from the President, to be able to 
transfer those. It will almost assure we will not have to 
transfer funds from other program areas.
    I can--you know, I've--once again, I appreciate the work on 
the FLAME Act. I can tell you that one of the most disruptive 
things that's been going on with the agency and with our 
communities and our partners over the last years is that, when 
August comes along and we have to move money from our other 
programs to pay for fire suppression, and not only is there the 
disruption for the current year, but, come August and 
September, that's when our folks are also beginning to plan for 
the next year. We probably didn't do the best job to really 
display the true consequences of what was happening. But, this 
contingency reserve will guarantee that we won't have to do 
that.
    So, that's how the--kind of, the 3 parts of our suppression 
budget will work.
    The Chairman. Let me ask about another issue. I think there 
are advisory committees that are called for in the Forest 
Landscape Restoration Act. I think there's a advisory committee 
there. Also, in connection with Secure Rural Schools program, 
there are advisory committees. As far as I'm aware, we don't 
have much effort or much forward progress in appointing members 
to those committees. Could you just give us a little bit of a 
status report on whether that's happening, or on what 
timeframe?
    Mr. Tidwell. With the Secure Rural Schools committees, we 
are making, I think, good progress, in that we have enough 
members, in several of the regions, that those committees can 
move forward. There's still a couple--we have a couple in 
Oregon, a couple California we're still working forward with. 
But, I expect we'll be able to get those in place soon.
    As far as the committee for the Forest Landscape 
Restoration Act, we have started the process to get that in 
place, and it's my hope that we'll have that, in early summer, 
so that that committee will be in place to be able to look at 
the recommended projects. We--last November, we sent out early 
guidance about how to put those project proposals together. In 
the very near--probably next week or so, I'll be sending out a 
call letter to the regions to provide direction about just how 
they need to put those project proposals together so that, as 
soon as we can get the committee stood up, we'll be able to put 
those projects in front of them, and so, we'll be able to go 
forward. Committee can make recommendation to the Secretary. 
The Secretary can select those projects, and we can get started 
on them this year.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Chief Tidwell, regarding Tongass timber assistance, the 
budget that we're looking at proposes to end the funding for 
road construction and the improvements for timber development 
there in the Tongass. I think we recognize that the bulk of the 
Tongass is just clearly not accessible by--without some 
additional road funding. So, can you--as specific to the 
Tongass, tell me what level of timber harvest you would expect 
the budget to support; and then, how long do you anticipate it 
might be before the Tongass is able to offer what was outlined 
in the Tongass land management plan, in terms of the 220 
million board feet that was agreed to? So, what do you think 
the budget is going to support? How do we meet the terms of 
that TLUMP plan?
    Mr. Tidwell. Senator, this budget request will support the 
same level of timber harvest that we've had in the past on the 
Tongass. But, that's not the problem. The problem is, we not--
we have not been able to implement. If you look at, you know, 
the track record over the last years, the amount of work we're 
actually being able to implement on the ground is not enough to 
sustain an integrated wood products industry.
    So, this budget request, I think, will actually provide the 
incentive for us to be able to move forward on the transition 
plan that you referenced. A key part of that transition plan is 
going to be a bridge. As we've discussed, there is just no way 
we can go from where we are today to a focus on second growth 
on the Tongass and still maintain that integrated wood products 
industry. We need to have a bridge. That bridge is going to 
have to, you know, continue to have some of the traditional 
timber harvest activities to occur.
    So, in this budget, when I talk about using stewardship 
contracts, I think the stewardship contract is a better tool 
for the Tongass than a timber sale contract. It takes away this 
argument about the cost. We can take a look at--here's the 
piece of landscape we want to do some work on, and look at 
everything we want to get accomplished on that. If part of it 
is to remove saw timber, remove biomass, do some stream 
restoration, do some roadwork on there, do some road 
decommissioning on that piece of landscape, we can put a 
project together. Through a stewardship contract, you know, 
if--especially, as part of our bridge strategy--we need to 
build a road--through a stewardship contract, we can build a 
road. We're just not going to be able to use our----
    Senator Murkowski. We won't have any money to build the 
road, though----
    Mr. Tidwell. We----
    Senator Murkowski [continuing]. Is the----
    Mr. Tidwell [continuing]. Won't have----
    Senator Murkowski [continuing]. Problem.
    Mr. Tidwell. We won't----
    Senator Murkowski. Roads----
    Mr. Tidwell. We won't be----
    Senator Murkowski [continuing]. Are expensive.
    Mr. Tidwell. Yes. But, we won't be able to use our CMRD 
funds for that road. But, through a stewardship contract, if 
there's, you know, say, receipts that are available from the 
biomass that needs to be removed, we can use that, you know, to 
help defray the costs of a road.
    But, the real key on our budget here is that we have a 
larger road system than we need. I understand the----
    Senator Murkowski. Do you think----
    Mr. Tidwell [continuing]. Tongass----
    Senator Murkowski [continuing]. That's true in the Tongass?
    Mr. Tidwell. The Tongass is probably different.
    Senator Murkowski. Is definitely different.
    Mr. Tidwell. Different. But, at the same time, this budget 
will help us, I think, move toward that transition. I----
    Senator Murkowski. Let me ask you about this transition 
plan. We can have a much longer conversation about the 
uniqueness of the Tongass and the fact that, if there is no way 
to build out roads, it is very difficult to accomplish any 
plan. We keep referring to this transition plan. When are we 
going to see it? How will that plan, then, relate to the 
Tongass land management plan requirements that the Forest 
Service meet the allowable sale quantities that were approved 
in that plan? How do we mesh this all together? When are going 
to see this transition plan? Then, how will this plan be funded 
through the budget?
    Mr. Tidwell. I think our--you know, our current level of 
funding that the region receives, I think, will be adequate for 
the restoration activities, the harvest activities that I see 
will occur in the future on the Tongass.
    We are working on some concepts with this transition plan, 
but I think it's essential, for this to be successful, that we 
need to work with the people of Alaska. We need to work with 
the communities, the interest groups, to build support around 
this. If I think we put out the perfect transition plan today, 
without first taking the time to really work with folks that 
have spent a couple years now--think--working on this, I don't 
think we'll be successful. I think it's essential----
    Senator Murkowski. I don't----
    Mr. Tidwell [continuing]. That we----
    Senator Murkowski [continuing]. Think you'll--
    Mr. Tidwell [continuing]. Work----
    Senator Murkowski [continuing]. Be successful----
    Mr. Tidwell [continuing]. Together----
    Senator Murkowski [continuing]. Because I don't believe 
they will be in business. I don't believe there will be anybody 
to implement a transition plan if we keep talking and talking 
and talking and talking--and, you know, talking about how we're 
going to allow for loans. Loans don't do anybody any good if 
you can't get the timber and if there is no work.
    So, I'm very concerned that we've been in planning mode for 
a long time, and now the 4 small operators that we have down in 
south/southeast are, as I mentioned in my opening comments--I 
mean, they're selling off equipment, piecemeal. We've got--you 
know, we've got one entity that is in liquidation now. We won't 
have anybody to make that transition.
    Mr. Chairman, I know that my time is out, but I hope we'll 
have an opportunity for a second round.
    The Chairman. Very good.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Let me begin by commending the administration and Secretary 
Vilsack for his--for making the Forest Service a priority. I 
think that's very important, and long overdue. So, let me say 
how much I appreciate that.
    Now, I hate to continue to be focused on parochial 
projects; however, I will, because I'm very interested to hear 
how this budget is going to affect the White Mountain National 
Forest, which is mostly in New Hampshire--800,000 acres in New 
Hampshire, and spreads into western Maine. But, as I'm sure 
you're aware, it's one of the most popular in the country. We--
get over 6 million visitors a year. We are within a day's drive 
of 70 million people. So, this is an area that is the focus of 
a lot of attention on the part of tourists coming through New 
England.
    I was concerned, in talking to folks--the staff at the 
White Mountain National Forest--to learn that their actual 
funding for last year was down 15 percent. I'm concerned about 
continuation of a reduction in funding for what they need to 
do. I appreciate the issues that our western forests are 
facing. I don't know about the Tongass forest in Alaska, but 
I'm sure that it has similar--there are similar concerns that 
they have to what we're looking at in New Hampshire, in terms 
of issues specific to our location.
    I think anytime--I think it's important, and what I'm 
hoping you're going to tell me is that you appreciate the 
differences between our forests in the East and the forests in 
the West, and recognize that a one-size-fits-all approach 
doesn't work for both. The forestry sector is a very important 
part of our economy in New Hampshire. The White Mountain 
forests are a critical piece of that. If we get to the point 
where there's not a enough staff to regulate the timber 
harvesting, it's going to have an impact across the timber 
industry in New Hampshire.
    So, I guess what I'm interested in hearing is how you think 
this budget is going to affect our ability to do what we need 
to do in the White Mountain forests.
    Mr. Tidwell. Senator, thank you for the question. Also, 
thank you for recognizing the support the Forest Service is 
receiving from the administration with this budget. In these 
difficult economic times, for us to have a budget request that 
actually has a slight increase over the 2010 budget, I--
demonstrates the level of support that we have from the 
President, the level of support and understanding that 
Secretary Vilsack has with the Forest Service, and how 
important our work is, you know, to the Nation, and especially 
to the rural communities that we live and work in.
    When I think about, you know, the White Mountain, and I 
actually think about our eastern forests, a lot of what this 
budget's built on is the good work that they've been doing over 
the years. When I talk about a landscape-scale conservation 
approach, that came from our eastern forests. They understand 
this; this is how they've been working. When I talk about 
restoration, and I think about the White Mountain, especially 
in the lands we've acquired through the Weeks Act, I'll tell 
you, that is the definition ``restoration.'' When you can go up 
there and see those national forests today, and you compare to 
what they were years ago, they understand restoration. It's not 
something--I can go up there--when I visited, I had to be 
really careful to say, ``Hey, we want to really increase 
restoration, really focus on that.'' They go, ``Wait a minute. 
We know how to do that.'' When it comes to collaboration, 
that's how they've worked.
    So, I look at this budget, it's very much in alignment with 
what we've been doing in some of our eastern forests. It's the 
sort of thing we want to get more across the entire Nation.
    I do understand that every forest is different; every 
single one, even those that are directly adjacent. It's one of 
the benefits of our forest planning process. So, we can 
actually take--you know, provide direction, you know, to 
specific forests, based on what the communities need, based on 
their inputs, to be able to design and provide guidance about 
how that forest needs to be managed.
    So, I think this budget, you know, lines up very well--this 
budget request lines up very well with the things that the 
White Mountain needs.
    When it comes to recreation, yes, that's a heavily used, 
heavily visited, heavily enjoyed piece of country. This budget 
request also includes an increase for recreation. We have over 
175 million visits every year. It takes, not only everything we 
can do with that budget, but all of our partners that we work 
with, to be able to continue to provide those recreational 
opportunities. I think, you know, the forest in your State is a 
prime example of how we need to continue to work together to be 
able to provide that.
    So, I think this budget is very much in alignment with just 
what the White Mountain's been working on.
    Senator Shaheen. Thank you. I have some more questions, Mr. 
Chairman, but my time is up.
    The Chairman. All right.
    Senator Risch.
    Senator Risch. Thank you very much.
    Chief, welcome. Thank you for visiting us.
    Tell me--I understand that in the stimulus package, you--
Forest Service got about $1.1 billion. Is that correct?
    Mr. Tidwell. That's correct--$1.15 billion.
    Senator Risch. How much of that has been spent?
    Mr. Tidwell. Our expenditures are to--from the last 
reporting date, were only about 10 or 11 percent. We have--you 
know, with our CMR, or construction projects, we have 
allocated, or are close to awarding contracts, on, oh, about 60 
percent of that work. With the wildland fire, we're about close 
to 80 percent of what we've obligated or are about to release 
contracts on.
    The expenditures is something that we're looking into, 
because it's kind of a--it's a question that I have. I thought 
the--as we awarded these contracts, that folks would be going 
to work, and they'd be submitting their invoices, and--et 
cetera. So, it's one of the things we're looking at to see what 
the--where's the difference in that lag time?
    Part of it is that--as you well you know, that a lot of the 
country that this work is going to be done is--it's wintertime, 
there's a lot of snow. In fact, our folks did some analysis and 
said about 58 percent of these projects are in parts of the 
country that receive over 70 inches of snow every year. So, we 
definitely have to factor in, you know, that some of this is 
seasonal work.
    But, on the other hand, it's one of the things that we're 
looking into to find out why. Part of it is to, you know, make 
sure that we have very transparent reporting and--so that we 
can, you know, show how this work is getting done. But, we've--
I think we've done a good job to get work obligated, get 
contracts awarded.
    One of the things that we've also done is that we've made 
sure that we've provided this work to local contractors and to 
some of the smaller firms. It might have been easier for us to 
just bundle these jobs up into very large contracts and then 
just have a limited number of companies that could bid on that, 
and we chose not to do that. We purposely did what we can to 
provide a good mix, to make sure that the smaller companies 
could bid on these contracts, so local companies could bid on 
it. So, that's also--you know, created, you know, some 
additional contracting.
    We did put up our--these regional contracting centers to 
help facilitate this work. When we started to get a backlog 
with those contracting centers, we doubled the staffing in 
those contracting centers so that, as soon as the contract 
packages were submitted--we have 90-day turnaround time from 
when those projects are submitted to the contracting center to 
when they are awarded. With our requirements for advertising, I 
think that's a very aggressive schedule.
    But, I'll get back to you with our results as to what we've 
found about why the expenditures seem to be, you know, not 
quite tracking with our level of obligations.
    Senator Risch. What do you think--just off the top of your 
head, how much of it will you have spent by the end of this 
fiscal year, by October the 1st? Just ballpark is all I'm 
looking for, Tom.
    Mr. Tidwell. Senator, I'm optimistic that, you know, we'll 
have--you know, by--you know, by the end of this field season 
that, you know, the majority of this will be spent. You know, 
depending on the size of the contract, we require a--almost an 
immediate startup date--no more than 30 days from when the 
contract's awarded to when you start. Some of the contracts 
have a very short time that they have to be completed. Some of 
the larger contracts, they have a couple years. So, some of 
this will, you know, go into the next year and continue to 
provide jobs. But, by the end of this field season, I expect 
that we'll have a significant increase and--the outlays, the 
expenditures on this.
    Senator Risch. I appreciate that.
    Let me just say, in closing here, that I appreciate your 
work in getting your budget down. I see you've worked at that 
over the budget, and obviously America can't go on the way it 
is spending money. It's going to be more severe, I think, in 
future years.
    The one thing I would like to point out is, you received a 
letter from the Idaho delegation urging you to reconsider 
decreasing the discount for seniors and the disabled people who 
buy permits for camping and what have you. You're reducing it 
from 50 percent to 10 percent. That's got to be a pretty de 
minimis amount in the overall budget. It seems to me, with 
those people who are the most vulnerable people that we have, 
that we could continue that 50-percent discount. So, I'd urge 
you to have a look at that.
    Mr. Tidwell. You know, Senator, thank you for that. It--we 
did propose changing that discount, and we also proposed 
increasing some benefits with the annual passes, to kind of 
have a mix there. I can tell you, that by far--by far, the 
comments that we received have been not supportive of this 
idea. We haven't made an announcement yet. But, you know, we're 
going to be looking at different ways to be able to address 
what we need to do in our campgrounds, and find other ways with 
that. But I do appreciate the question. I appreciate your 
letter.
    Senator Risch. Thank you. We generally support many of the 
things the Forest Service does, but count us in that group of 
``not supportive,'' please.
    Mr. Tidwell. Thank you.
    Senator Risch. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Lincoln.
    Senator Lincoln. Mr. Chairman, thank you so much. I 
apologize for being in many places, and being late to the 
hearing today. But, I do thank you, and very much appreciate 
the hearing today. You know that the Forest Service is an 
important agency to me. I'm very proud that we share a little 
bit of jurisdiction over this group of dedicated professionals, 
between our committees, both here in Energy, as well as in the 
Agriculture Committee. So, I appreciate very much.
    Chief Tidwell, thank you. Appreciate you being here today. 
Certainly appreciate working with you, and having a visit. I 
was pleased to get to go home in Arkansas and tell them I had 
met with the chief of the Forest Service. So, I appreciate the 
opportunity to work with you.
    Just 2 quick questions, and I know you probably know what 
the first one's going to be. I understand that several groups 
have filed appeals regarding the proposal to drastically reduce 
the off-highway vehicle, the OHV, use in the Ouachita National 
Forest for us in Arkansas. I ran into the mayor of Mena the 
other day, and they said they were going to lose about 50 
percent of their revenue, in a time when--they can't support 
that in an economy like this.
    But, I'm extremely concerned about the decision, and it 
came as a great shock to our constituents in Arkansas, 
particularly the decision to close the Wolf Pen Gap area for 
most of the year. Obviously, just keeping it open for a few 
months during the summertime is really not adequate for the 
number of individuals that really enjoy it. It's an area that's 
largely dependent on tourism, without a doubt, from visitors 
who come there to enjoy the forest.
    I relayed that to you in January, and I just am very 
concerned about it, and hope that you in the Forest Service 
will work with the--work these issues out with the local 
communities and be cognizant of what impact it has on them, and 
certainly be willing to look at their appeals and their 
concerns. I think they are willing to work with you. I just--I 
hope that you'll be cognizant of what they are up against 
there, and hope that you can assure me that--you know, that 
you're not going to move on those restrictions, in terms of 
access, until the issues have been resolved and that you have 
kind of worked with the community.
    Then, the last thing is, is I'm just also alarmed about the 
Forest Service budget proposal to eliminate the timber sale 
line item. I know you knew that that was coming from me, 
because the timber sale is a big issue for us. I think it--
it's--it is one that we really use effectively and efficiently 
in Arkansas. We have one of the best management practices in 
the--in any of the States. We bring everybody to the table to 
make those determinations and make sure that we're using those 
resources effectively and efficiently and in--as good stewards 
of the land. But, we also return a tremendous amount of 
resources to the Treasury through those timber sales. Just 
would--you know, again, hope that can ensure us, in some way, 
that the proposed, you know, Integrated Resource Restoration 
Program and other cuts will not further, you know, harm the 
already struggling sawmills that--and timber industries that we 
have in Arkansas and in other States.
    Mr. Tidwell. Senator, thank you.
    I'll address your first question, on the travel plan. As--
and I, too, thank you for the time to visit with me and express 
your concerns on this. You know, we--we've received 27 appeals 
on this decision, and we may even actually get a couple more; 
they may come in the mail this week. So, it's--it'll take a 
little while for us to work through those, but I can assure you 
that our staff's going to take a look at those and see if we 
can find ways to resolve, you know, the concerns there so that 
we can move forward with a decision that can be supported.
    I think it's essential that we do our travel planning. I 
think it's essential to be able to continue--for the years to 
come, to be able to continue to provide motorized recreational 
opportunities by having a dedicated system of trails in 
dedicated areas. I think it does provide for sustainable 
recreation use. So, it's very important that we are able to get 
this done.
    It's also essential that we do it in a way that it's--can 
be supported. There's some ownership into that decision so that 
we have the compliance that we need, and that's just essential.
    So, I'm optimistic that--you know, based on the appeals, 
and the concerns that are raised, and hopefully some ideas 
there that will help us to take a look at how we can address 
the concerns, but, at the same time, you know, provide the 
recreational opportunities that folks really enjoy there. So--
and I appreciate your leadership and help on this.
    Senator Lincoln. Thank you.
    Mr. Tidwell. On the--your second question, our budget 
request, the last thing it is, is to reduce active management 
restoration work. In fact, it's my intent that through this 
budget request we can do more. You know, in the Ouachita, it's 
a forest that many of--many of their sales do cover costs of 
preparing and administrating those sales. So, you know, we 
still have the option of using a timber sale contract. That's 
really project by project, so any project that--you know, when 
we look at--the potential value of the material to be removed 
will cover those costs. We can use a timber sale contract.
    But, what I'd really want us to be using is stewardship 
contracts. I think it's a better tool. I think it's a better 
tool in the Ouachita to use. Maybe not in every place. The 
reason it's a better tool is that it allows us to put all the 
work that we want to get accomplished across this landscape in 
under one contract. It provides assurance that we're not only 
going to be doing the biomass removal, the sawlog removal that 
we need to get done, but also we're going to be doing the 
roadwork that needs to be done, improving wildlife habitat that 
needs to be done, addressing fisheries concerns, addressing 
recreation concerns, trails. That's the idea behind the 
stewardship contract, and I think it's a better tool. So, if 
anything, in my view, this is going to help us to be--to do 
more.
    Now, we're going to continue with our integrated resource 
restoration line item. The focuses on that is going to be acres 
treated, acres restored. But, we're still going to track 
outputs, we're still going to be able to tell you, at the end 
of the year, you know, how many million board feet we sold, how 
many acres of wildlife habitat we improved, how many miles of 
stream that we've improved. We're still going to track those 
outputs. But, the concept here, it really supports a 
stewardship contracting idea, in that it allows us to really 
take a look at the landscape and think about what we need to 
do. What's the work that needs to be done there? Instead of 
being driven by this program or this program, it'll actually 
allow folks to be able to sit down together, take an integrated 
approach, and I think it'll actually help build more support 
for the kind of work that we're doing there on the Ouachita, 
the kind of work that we need to get more done throughout the 
country.
    Senator Lincoln. I appreciate that. I know my time is up. 
But, would you say that--if, in fact, those stewardship 
contracts are the best tools to use, I would just say that 
timeliness is also an issue. When you get too many things into 
one contract--too many purposes, too many objectives--sometimes 
people feel like that they move too slowly. At this juncture 
right now, particularly in the timber industry, they are--
they're in dire need. They're--they were in dire need, years 
ago. So, I just hope that we'll look at an efficient and 
effective way of implementing things that can move in a way 
that doesn't take too long, though.
    But, thank you, Chief. I appreciate it. Appreciate you 
being here, and appreciate working with you.
    Mr. Tidwell. Thank you.
    Senator Lincoln. Thank you, Mr. Chairman.
    The Chairman. Senator Wyden.
    Senator Wyden. Thank you. Thank you very much, Mr. 
Chairman.
    Chief, great to have you here.
    I am pleased about a number of things in the budget, the 
support for fire suppression. I'm also very pleased to see the 
shift to landscape-scale restoration work. The $50 million for 
the priority watersheds and job stabilization effort, in my 
view, is exactly the kind of targeting that we're going to need 
in the future.
    As you know, in December we were finally able--after what 
amounts to years of discussion, we were able, in Oregon, to 
bring together the timber industry and the environmental folks 
on the east side--in effect, it's 6 national Forests, over 8 
million acres--on a combined plan that's going to get sawlogs 
to the mills, give a boost to biomass, bring about more 
efficient forest management, and also do some serious old-
growth protection. So, we think--in fact, people were kind of 
stunned when these folks were standing, you know, next to each 
other--people who had, by and large, spent a lot of time 
litigating against each other--coming together. So, we look 
forward to working with you, because I think you're moving to 
the kind of approach that Oregon has tried to promote.
    Now, I'm sorry that I was a little bit late. I know you're 
consolidating some of the items into the new integrated 
resource restoration line item. What people are going to want 
to know in my part, you know, of the country is, How, with this 
change, can you give us assurance that it's going to be 
possible to get sawlogs to the mills? Why don't you see if you 
can--I know you touched on it with my colleague, and she and I 
share a lot of similar interests in this, but tell me, if you 
would for the record, how we can provide assurance, in our part 
of the country, you can get sawlogs to the mills.
    Mr. Tidwell. Senator, thank you, for the question, and 
also, thank you for the work that you do, the leadership you 
provide. As you referenced, what we've been able to bring 
together there in eastern Oregon--to be able to bring folks 
together that, in the past, have had a hard time probably being 
in the same--sometimes the same town, now are willing to sit 
down together, to work together, to reach agreement on the type 
of work that we need to get accomplished.
    With our integrated resource restoration budget line item 
proposal, like I was discussing, we will be focused on acres 
restored as one of the metrics, but we will continue to track 
the outputs, which will be--for instance, board feet. What we 
estimate with this budget, that we will produce about 2.4 
billion board feet, which is just a very slight decrease from 
what we have in the 2010 budget proposal. I believe that's a 
very conservative number.
    I think that, by the end of the year, that, with this 
approach, we'll be able to build more support for the work that 
needs to be done, and that we will continue to be able to 
provide that type of material. I know, without question, how 
essential it is to maintain the integrate wood products 
industry. If we lose that industry, and in the places in this 
country where we have, it's just so difficult for us get the 
work done, to get the restoration work done.
    So, you know, I wouldn't be here making this request if I 
didn't think that we'll be able to continue to do that level of 
work. Actually, I feel that we can increase the level of work 
that we get done through this budget request.
    Senator Wyden. You're certainly right on with respect to 
losing the infrastructure. If we lose the infrastructure in 
eastern Oregon, which is absolutely pivotal to bringing people 
together, then you don't have the tools, for example, to have a 
real biomass, you know, industry. It was very key to getting 
agreement.
    On the question of the Recovery, you know, Act, the 
projection was that there'd be 20,000 new private-sector jobs 
by the completion of implementation. Obviously, we've got a 
long, long way to go to hit that target. What, in your view--
because, as you know, there's a tremendous amount of work that 
needs to be done--what, in your view, can be done to accelerate 
the pace of hiring folks to do work that we all need, is--we 
all understand is so important?
    Mr. Tidwell. Senator, it's one of the things that I've been 
focused on since I came into this position, about how we can 
accelerate, you know, getting the contracts awarded, and then 
accelerate to get the work started. Like I--we have looked at 
our contracting centers to make sure they're properly staffed, 
so that the--as soon as the contract packages are presented, 
that we have a deadline to be able to turn those around and 
have them out within 90 days. That includes the time that we're 
required to--for presolicitation and bidding on these projects. 
So, we're tracking that.
    In fact, I have a call, every week with our National 
Leadership Council, where we talk about this. I ask each of our 
regional foresters, our station directors, What are the issues, 
what are the barriers that are, you know, slowing down for us 
to get this work done? So, each week as things come up, we sit 
and talk about that and decide a course forward. So, we're 
continuing to make, I think, very good improvement.
    You know, part of it is just the seasonal nature of some of 
our work in parts of the country. I, you know, expect, this 
spring, we'll see a significant increase in the number of jobs, 
you know, the outlays that occur. We--I put out direction, 
earlier, that we needed to have every contract package into our 
contracting center by the 1st of March. We're going to be close 
to that. We won't quite have that done. So, even the last 
contracts that need to be awarded, we'll have those out for the 
start of this field season. So, I'm expecting we'll see a 
significant increase in the number of jobs, the number of 
people the are--we're able to put back to work.
    Senator Wyden. I'm going to ask you, at every hearing when 
you're here, about what's being done to get more folks in 
place. Because this work is so urgent, and the reality is--and 
I know my time is up, but, Mr. Chairman, these fires that we're 
seeing in our part of the country, they are not natural fires, 
they are infernos that come about as a result of years and 
years of neglect. So, just expect that, every time that you're 
here, I'm going be pressing on what's done to make sure that we 
get those 20,000 jobs. We've got a long way to go. I appreciate 
the fact you want to accelerate the hiring, and we've just got 
to keep the pressure on.
    I think--Mr. Chairman, are you going to have another round 
after this?
    The Chairman. We will.
    Senator Wyden. Great.
    The Chairman. Yes.
    Let me just ask one question, and then defer to Senator 
Murkowski for additional questions.
    You mentioned, in your opening statement, I believe, the 
Youth Conservation Corps. To what extent have we been able to 
use the Recovery Act funding, or the budget that has now been 
proposed for next year, to really increase, significantly, the 
number of young people that we can put to work in these Youth 
Conservation Corps? Is that on track to happen, or not?
    Mr. Tidwell. You know, Senator, it is. I will--I'll get 
back to you with the specifics on the number of projects that 
we have the Conservation Corps working on.
    But, I can tell you, that is one of the groups that have 
been essential for us to be able to more forward and quickly 
put people to work. They are--the Corps network is set up so 
that, as soon as they receive the funds, they can put people to 
work almost immediately.
    So, it's been a focus with our economic recovery projects, 
and it's going to be a focus with our--especially this year's 
budget, and also with 2011. I feel it's not only a great way to 
get the work done, but it's an excellent investment, the 
investment in the youth of this country, to give them the 
experience to be able to get out there and not only get some 
good work done, but to have that experience, to be out of 
doors, having experience to--for us to talk to them about the 
environment, to talk them about the mission of the Forest 
Service, because we look at that as an excellent way for us to 
do outreach for our future employees for the Forest Service.
    The Chairman. That's certainly my view, as well. I think 
that we've got a great opportunity to use these Youth 
Conservation Corps around the country to a much greater extent 
than we do today to get a lot of good work accomplished.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Chief Tidwell, I'd like to ask you about the roadless rule. 
As we all know, there's discussion that the administration will 
reimplement the roadless rule policy that was proposed 
initially during the Clinton administration. In Alaska, with 
the Tongass, got some other issues at play. You've got the 
Alaska Lands Act, you've got the Tongass Timber Reform Act, 
you've got some other congressional mandates, a specific 
legislative mandate that there be harvest from the forest. That 
was a mandate that the Forest Service had recognized 3 years 
ago, when they settled the suit over the roadless issues filed 
by the State of Alaska.
    So, my question, to you is, In view of all that, does the 
Forest Service--does the administration intend to defend, and 
to vigorously defend, the court settlement that we have with 
the Tongass, given the Tongass specific legislative history 
there?
    Mr. Tidwell. You know, Senator, I have not been, you know, 
briefed on that lawsuit. In fact, I think it's planned for 
later this week, to be able to sit down with that, to be able 
to specifically answer your questions on that.
    But, when it comes to roadless, you know, it's--I've been 
working on this issue for close to 30 years, almost my entire 
career, and I think about all the time and energy that we've 
spent on trying to come to some agreement about how roadless 
areas should be managed. You know, that's going to continue to 
be my focus. and we have some work to, you know, do on the 
Tongass. So, we're--you know, this administration has been very 
clear that we are going to protect roadless areas, we're going 
to protect those values. At the same time, we have to, you 
know, work, you know, with the concerns and the issues that 
come along with that.
    So, at this point in time, we're waiting--we're not moving 
forward with doing any action, we're going to wait to see what 
happens in the courts. In the past, we've moved out and done 
additional rulemaking before the courts have ruled, and it's--
you know, creates a kind of an ongoing situation. So, this time 
around, the decision's been, we're going to wait to just see 
what the courts do on roadless.
    I expect we will, you know, defend. I don't see any reason 
why we would not defend that. If there is something different 
there, I will personally give you a call and let you know.
    Senator Murkowski. I appreciate that. As you say that you 
will work to protect those roadless areas, I would certainly 
hope that you would work to protect the settlement agreement 
that was reached with regards to the Tongass and the issues 
that were presented in that litigation. Again, it's more than 
just one lawsuit. You've got Federal Acts----
    Mr. Tidwell. Yes.
    Senator Murkowski [continuing]. Our Alaska Lands Act, the 
Tongass Timber Reform Act, that all come into play. We would 
certainly hope that this administration, as well as any other 
administration, would protect those agreements that have been 
reached and, again, vigorously defend them.
    Let me ask you about the stewardship sales. I understand 
that your staff and our legislative staffs have had multiple 
briefings on this issue. What I understand is that only those 
timber sales--again, the below-cost timber sales--only the 
timber sales that are going to return more revenue than they 
cost will be developed. I want to make sure that I understand 
that, with this budget, that is--that, in fact, the direction 
that is being taken with the budget is that you will--you will 
not be allowing sales to move forward that are these below-cost 
timber sales, that, in fact, the budget proposes to end the use 
of commercial timber sales that don't return more revenue than 
they cost to plan and prepare and sell. Is that a correct 
interpretation of where this budget takes us?
    Mr. Tidwell. This budget request encourages the use of 
stewardship contracting.
    Senator Murkowski. I understand that.
    Mr. Tidwell. It's one of the things that--I've been 
frustrated, over the last few years, of why we--as an agency, 
we haven't been able to do more. So, this budget encourages and 
facilitates, you know, the use of stewardship contracting. We 
still have the timber sale contract as a tool to accomplish the 
work, and we'll use that in the places where the material to be 
removed will cover the cost--the value of that material will 
cover the costs of preparing and administrating the sale. But, 
in--but, even in those areas, a stewardship contract, I think, 
is often a better tool.
    I want to keep both tools. I think it's essential that we 
have both contracts, but I want to see us to do more with 
stewardship contracting. I really believe it's a better tool--
--
    Senator Murkowski. Let me----
    Mr. Tidwell [continuing]. For the Tongass.
    Senator Murkowski [continuing]. Ask you, though, about 
that. I mentioned it in my opening comments. I made the 
statement that there haven't been any stewardship contracts 
that return more revenue receipts to the Treasury than they 
cost the Forest Service to plan and prepare and sell. Isn't 
that a correct statement?
    Mr. Tidwell. You know, Senator, I'll have to get back to 
you on----
    Senator Murkowski. OK.
    Mr. Tidwell [continuing]. That. I know that----
    Senator Murkowski. Can you give me a list of--if there are, 
in fact, stewardship contracts that, in fact----
    Mr. Tidwell. OK.
    Senator Murkowski [continuing]. Do pencil out, can you 
provide us that list?
    Mr. Tidwell. I will.
    [Information referred to follows]
    Mr. Tidwell. The concept of a stewardship contract is, 
where we do have a valuable material that needs to be removed--
sawlogs, biomass--we--through a stewardship contract, we can 
use those revenues to then pay for the restoration work. So, 
most stewardship contracts are not going to return money to the 
Treasury, just--it'll--they'll balance out, it'll zero out.
    In many of our stewardship contracts, we also have to add 
appropriations to that to get all the work done. So, the 
material to be removed may defray some of the costs, but we 
also have to use appropriated funds to cover all the 
restoration work that we want to get accomplished.
    The stewardship contract, there's no requirement that it 
returns--covers the cost of preparing the work or anything----
    Senator Murkowski. Right.
    Mr. Tidwell [continuing]. Like that. So, you know, this 
below-cost issue, it's--it definitely wasn't the--you know, the 
intent to even bring that up into the discussion; it was to be 
able to use the right tool for the work we want to get done. 
So, we'll continue to use--have both tools. But, a stewardship 
contract, the authority that we have, I believe, in most cases, 
is a better way to get this work done. There'll be other places 
we'll use--you know, we'll use timber sale contracts, where we 
can. But----
    Senator Murkowski. I just want to make sure that we don't 
have a different standard here, that for commercial timber 
sales, you know, you're--they won't be allowed to go forward 
unless they--more revenue comes in than goes out, and that, for 
other, it would be a different standard.
    Mr. Tidwell. The difference is the contract we use, whether 
it's--that's timber sale contract or a stewardship contract. 
That's the only difference. The work still--the work is what--
the work--the restoration work, the work that needs to be done, 
we--we're--still go forward with that, we just use a different 
contract. That's the difference on this.
    So--and like I--I'm very confident that we're going to be 
able to get more work done than we have in the past by this 
increased focus on using stewardship contracts. We have a ways 
to go, we're actually developing a new contract. It'll actually 
be--it'll be easier for our folks to be able to use. I think 
it'll be easier for our contracting purchasers. The folks that 
have been using stewardship contracting, those that are 
comfortable with it, they've been able to, you know, bid, and 
use--bid on these projects.
    Now there's a lot of support for this concept, not only 
from the purchasers and the contractors, but there's a lot of 
support across the board for using a stewardship contract. It 
provides that assurance that I'll--not only are we doing the 
biomass removal, the sawlog removal, but, at the same time, 
we're doing restoration work that folks are very interested in. 
So, by putting that together in one package, you build a lot 
more support for the kind of work that needs to be done on the 
landscape.
    Instead of using a timber sale contract to do the biomass 
removal, having another contract to do some roadwork, another 
contract to do some fisheries habitat work, the stewardship 
contract, we can put that together. Then if there are any value 
of the material that needs to be removed, we can then use that 
to offset the costs for this other work that needs to be part 
of the package.
    You know, I am--I'm very--I really feel strongly that this 
is a better tool, in most cases, for the Forest Service to be 
using it. But, we'll use both tools. But, it's all just--the 
difference is in the contract that we use.
    Senator Murkowski. Thank you, Mr. Chairman.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you.
    I should begin by recognizing Under Secretary Harris 
Sherman, who I saw in the back of the room here, and just 
thanking him for his willingness to come to New Hampshire and 
meet with folks in New Hampshire who are involved in the 
forestry industry in the State. Would love to have you come up, 
too, Chief Tidwell. So--we don't want to show any favoritism 
here, we want everybody in New Hampshire.
    I want to raise the same question that Senator Wyden did 
about what the impact of the reorganization into an integration 
resource restoration line will have on the ability of National 
Forest offices to avoid reductions in timber harvesting, and 
just would appreciate assurances that we won't see reduced 
timber harvesting as the result of that reorganization.
    Mr. Tidwell. Senator, you know, you look at what we're 
estimating, the amount of board feet that we plan to sell in 
2011, and it's a vary slide, it goes from 2.5 in 2010 to 2.4. 
Once again, I think that's a very conservative estimate. So, I 
actually believe we'll be able to accomplish more by having 
this budget line item.
    You could argue that we should be able to accomplish this 
level of integration with multiple budget line items. But, the 
difference is that it allows our budget structure to being 
aligned with the kind of work we're trying to get done on the 
landscape. So, it just helps facilitate that integrated 
thinking, and it helps facilitate to bring people together in 
their planning. It sends, I think, a very clear message about 
the focus for the Forest Services, on restoration. I used, you 
know, forests in your State as the perfect example about--
really what drives the work that they do is on restoration of 
those forests.
    So, I am--I'm very confident that this consolidated budget 
line item is actually going to help facilitate the work. It's 
going to make it easier for us to be able to take a look at the 
landscape versus program by program of what we need to get 
accomplished, and it will--in my experience, it will definitely 
build more support for the type of work that we need to get 
done.
    So, you know, if I thought we were going to see a 
significant reduction, I'd be telling you that, and that we'd--
we are shifting. But, that's not the case.
    There are so many places in this country. We need to do 
more work, and I think that's very evident. So, this is one--
one way that it will really help us, I think, to be a little 
more effective, build more support, and be able to continue to 
produce the mix of benefits that come off the national forests 
and grasslands.
    Senator Shaheen. Thank you.
    Finally, Senator Murkowski raised the issue about roadless 
areas. I know that there is a moratorium on taking action on 
that for a while, until some of the court issues have been 
resolved. But, again, since I'm probably not going to see you 
until after that has happened, unless you come up to New 
Hampshire, I do think it's important to reiterate, again, the 
difference between the eastern forests and the western forests, 
that it's not--when we're looking at roadless areas, it should 
not be a one-size-fits-all approach, and that, in New 
Hampshire, we have a consensus forest policy that--and plan--
that the environmental community, the timber industry, and 
policymakers have agreed to, and it's been put together with a 
lot of local input. I would hope that we're not going to have a 
policy in Washington that comes in and supersedes what has been 
carefully put together by the local folks in New Hampshire.
    So, I would just urge that, as we look at any future 
efforts to address roadless areas, that it take into 
consideration what's happened on the ground in States.
    Mr. Tidwell. Senator, thank you for that. I can assure you 
that we will. I have been up to our new office there, which I 
think----
    Senator Shaheen. Good. Which----
    Mr. Tidwell [continuing]. Is----
    Senator Shaheen [continuing]. You've beat me, then, because 
I haven't been there yet, and I understand it's really 
terrific.
    Mr. Tidwell. It's a model of what we can do to reduce our 
environmental footprint. You know, I wish we could have an 
office like that everywhere. But, that is one that the folks 
have done an incredible job to just bring everything together, 
to be able to provide the heat from wood pellets; actually, 
then, when there's surplus, they can use a gasification system 
to actually put electricity onto the grid; that you have a--you 
know, just an incredible building there. So, we use that as an 
example about--a model about what we can do to really reduce 
our environmental footprint, you know, reduce the energy costs, 
and everything. So, it's something I'm very proud of, and I was 
very pleased, excited to be there on the day we were able to 
dedicate that new building.
    Senator Shaheen. Great.
    Mr. Tidwell. So----
    Senator Shaheen. Thank you.
    The Chairman. Senator Risch, you had a additional question.
    Senator Risch. Briefly.
    Tom, I don't know why you think roadless is so hard. You 
know, I only worked on it once, and it was tremendously 
successful. I don't know what the--why the difficulties.
    [Laughter.]
    Senator Risch. For those of you who don't know, Tom and I 
worked together on the Idaho roadless, where we had 9.2 million 
acres of roadless, and some of the most diverse in the country. 
But, we wrote a rule, and--well, it was a collaborative effort, 
and it was supported by the environmental community, the 
industry, and everyone else.
    I want to thank you, right now, for defending it. We have a 
small challenge to it--and it truly is a small challenge. We 
have both the conservation groups and NSTA groups that have 
stood by us and are defending it. Thank you, for the new 
administration carrying on the defense of that. We appreciate 
it.
    I've also noted, in the things that you've put out, you've 
indicated that whatever else happens with the roadless rule, 
that Idaho rule will stand, having been published and adopted 
by the Forest Service. So, we appreciate that, and thank you 
very much.
    Mr. Tidwell. Senator, I, too, want to thank you. When I 
look at what we were able accomplish with the Idaho roadless 
rule, that--and people have asked me, ``Well, how did you do 
that?'' I first reference then Governor Risch, now Senator 
Risch, his leadership of what you're able to do to recognize 
what it would take to bring people together and to be able to 
strike a compromise that protects roadless areas, but, at the 
same time, provides some flexibility to address, you know, 
concerns from the local communities. You know, I'm very proud 
to have been, just, part of that.
    But, Senator, I--once again, I just want to thank you for 
your leadership. That's the sort of thing that, often, is what 
it takes to be able to get these things done. I think if we can 
find resolution in Idaho, I think we can find resolution 
everywhere, when it comes to roadless.
    Senator Risch. I think that--people ask me the same thing, 
``How'd you get it done?''--and I think that--the first thing 
that struck me, because of my forestry background, was that, 
over the 40 or 30 years, whatever it is, that they've been 
fighting about it, that everyone was attempting to treat 
roadless as a one-size-fits-all. As you know, I broke it into 
280 different roadless pieces in Idaho, and we treated each one 
like a piece of property should be treated: uniquely. Although 
we put them in 5 different categories--that really, really 
worked. I mean, people rallied around. It was amazing how well 
people accepted the fact that--industry people who--you know, 
we had ``not one more acre'' people for wilderness, what have 
you, and I said, ``Look at this. Look at this piece of 
property. You think you're going to cut trees on here? Build 
it? It's never going to happen, you know, why are we even 
talking about this?'' Once we did that, once we broke it out, 
that seemed to be--yeah, I think it was the keystone, I really 
do. So--anyway, thank you for your help.
    I saw one of your predecessors--Mr. Bosworth, who--by the 
way, we were in the College of Forestry together, we were in 
the same class. I hadn't see Dale in a while. I was on a 
congressional delegation in a visit to Egypt last April, and I 
got on an elevator in Egypt and I ran into Dale Bosworth. I 
said, ``What are you doing here?'' He says, ``I'm doing some 
consulting work for the Forest Service.'' I said, ``Dale, have 
you looked around? You know anything about palm trees?'' You 
know, the----
    Thank you Mr. Chairman.
    The Chairman. All right, thank you.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    I appreciated my colleague from New Hampshire putting in a 
good word for Under Secretary Sherman. He's in the back, so I 
guess all we get to do, really, is give him a little shout-out. 
But, he's really been out there listening to the Oregon folks, 
as well, and, I think, getting a sense of how urgent it is that 
we get this put together and get it enacted. So, I want to say, 
even though he's in the back of the room, a big thanks to Under 
Secretary Sherman. Glad he's at his post.
    Chief Tidwell, one other area, and that's a question about 
hazardous fuels reduction and the emphasis on the wildland-
urban interface. Now, suffice it to say we know--at least in 
our part of the world, and I think it's true, you know, 
generally--there's millions, and millions of acres that we got 
to go in there and thin out. It is absolutely essential if 
we're going to get the forests healthy again. You have included 
more funding in the various accounts that deal with it. All 
very constructive.
    But, the agency has indicated a desire to focus on the 
wildland-urban interface. I want to just unpack this for a 
minute and sort of stipulate right out up front that there is 
no difference of opinion, on this side, you know, of dais, 
about how important the wildland-urban interface is, and the 
community wildfire protection plan. Let me just stipulate, 
these are very, very critical priorities, and I support the 
efforts to go there.
    My concern, though, is, in my State, there are millions and 
millions of acres in the back country. They're in the back 
country, and they are in urgent need of restoration work. For 
example, to strike that balance, the kind of balance that we 
would like to have, so you can get sawlogs to the mills, 
biomass going, protect, you know, old growth--if we're going to 
protect the old growth, we've got to go into some of this, you 
know, back country and do some, you know, very serious, you 
know, thinning work. We've had forestry experts come to the 
Timber and Forestlands Subcommittee, that I chair, and say the 
same thing.
    So, what can we do, knowing how important the wildland-
urban interface part of this is, to make sure that that's not 
the only hazardous fuel reduction work that's done and that we 
also have a very aggressive effort going in the back country? 
Your thoughts?
    Mr. Tidwell. Senator, thank you for the question. You know, 
our increased focus on the wildland-urban interface with this 
budget request is--the recognition is, that is--that is the 
place where we have the most difficulty with suppressing fires, 
just because we lose some options with the close proximity of 
homes and communities.
    It's--I think it's essential that we get in those areas and 
we do the treatments that need to be done. The majority of that 
has to be mechanical. You're actually going to see--with this 
increased focus in the wildland-urban interface areas, you're 
going to see more mechanical treatments, because it's much more 
difficult for us to use prescribed fire in those situations. 
So, there's going to be more mechanical work done, more 
biomass, more sawlogs that'll need to be removed, you know, out 
of that effort.
    But, the focus with our hazardous fuels on that will just 
increase that focus. We're still going to be doing some 
hazardous fuels work in other areas. But, we also--through our 
integrated resource restoration work, we also can, you know, 
change the condition class of landscapes and be able to--when 
we're doing restoration work, we're also accomplishing 
hazardous fuels work, we're also reducing the severity of a 
catastrophic fire, we're also improving--increasing the 
effectiveness of suppression tactics by doing this work.
    So, you have to really take all of it together. It's 
difficult--if you just look at any one piece of this budget, 
you can say, ``Well, OK. How are going to treat the back 
country?'' But, if you look at it together, I think--I feel 
very confident that this is a good mix, to be able to do both 
types of work that need to be done, and be able to work 
together on it.
    Senator Wyden. I just want you to know how strongly I feel 
about this. A lot of the folks in the back country, in Oregon 
and around the country, almost believe they're an afterthought. 
You know, they say, ``I know the population is in the area. The 
people with the nice homes are in the, you know, urban area.'' 
We just cannot have this situation, where it seems that most of 
the discussion, most of the focus goes to the urban--you know, 
urban interface. That's why I wanted it understood that I'll 
fight like crazy for those kinds of thinning programs. I think 
you make a good case. But, it does seem, in a lot of the 
discussion, that hardly anybody mentions, you know, the back 
country. We've got to get, you know, in there. That's one of 
the reasons the eastside, you know, program is so important. 
So, we'll be following up with you on that, as well.
    Mr. Tidwell. Senator, just to follow up, another 
opportunity there for the eastside forests--and I fully expect 
we'll see a project proposal under the Collaborative Forest 
Landscape Restoration Fund--to have that focus on addressing 
fuels, wildland fire concerns. That's a great opportunity, and 
I know--with the collaborative efforts that are in place that 
you referenced earlier, I expect those folks will be able to 
submit a very good proposal, and I would encourage them to do 
that, because it'd be another opportunity for them get 
additional funding and also to be able to focus on the type of 
work that you're describing.
    Senator Wyden. I appreciate that. There's no question that 
having proposals that add up, that can be a model, you know, 
for the country, are critically, you know, important. You have 
a lot of challenges. You know, a lot of us from the rural West 
have ideas about it. We're going to work very closely with you, 
we're going to work closely with Under Secretary Sherman. This 
is a key, kind of, time. Look forward to continuing this 
discussion.
    Mr. Tidwell. Thank you.
    Senator Wyden. Thank you, Mr.----
    Senator Murkowski [presiding]. Chief Tidwell, we appreciate 
you spending time with us this morning. I will tell you, I 
leave the hearing this morning perhaps more frustrated than 
when I came in. I think you heard my--the frustration in my 
tone, in my comments, in--particularly in the opening remarks 
that I made.
    But, I'm--I haven't gotten the answers that I had hoped to 
hear, in terms of, you know, the expected level of timber 
harvest, how we meet the TLUMP, when we can expect the 
transition plan, how it's going to be funded. I mean, we've 
been trying to work with you to determine whether or not these 
grants through Forest Service RDA might be available to at 
least the 4 applicants. We haven't gotten certainty on that. We 
want some real commitment. Hopefully the administration will be 
there, the Forest Service will be there, in defending the 
Tongass roadless.
    I appreciate your perspective on the stewardship contracts 
and the opportunities that you think that they present. I 
wouldn't disagree with that, but I still remain concerned that 
if we don't have those revenues to direct to the Treasury to 
offset those stewardship contract costs, then you have to rely 
on appropriations. If there's no appropriations, then where are 
we?
    So, I recognize that there are continued complications, 
issues that we face with these as we look to these sales. I 
would hope that we would continue to have a very open door in 
discussing, from the agency, with Alaskans, the concerns that 
so many have about what we're seeing with the Tongass. Again, I 
will reiterate my concern about a transition plan and how we 
can be realistic about this plan while--at the same time, 
recognize that we may not have individuals to implement the 
plan. Senator Wyden, in his comments, also indicated, you know, 
if we don't have the folks within the industry that can hang 
on, then you aren't able to do the retooling that I think we 
recognize is the direction that we're taking.
    So, we've got a lot of work to do in front of us, and 
hopefully you will remain as committed to returning our phone 
calls and sitting down with us as you have been in the past. 
We've got some things that we've got to do and, I believe, must 
do in very, very short order.
    So, with that, we stand adjourned.
    [Whereupon, at 11:56 a.m., the hearing was adjourned.]


                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

    [Responses to the following questions were not received at 
the time the hearing went to press:]

            Questions for Tom Tidwell From Senator Bingaman

    Question 1. I see that the budget proposes an increase of $8 
million to finish the travel management planning process. Do you 
believe this level of funding is adequate to complete the job?
    Question 2. Approximately what percentage of your law enforcement 
effort is currently dedicated to off-highway vehicle issues and 
conflicts?
    Question 3. What percentage of your law enforcement encounters is 
off-highway vehicle-related?
    Question 4. How do you plan to coordinate the climate adaptation 
initiatives described in the budget with other agencies?
    Question 5. Does the Forest Service plan to continue a full 
annualized forest inventory and analysis (FIA) program in New Mexico in 
FY2011?
    Question 6. In 2007, the GAO found that the Forest Service did not 
have an adequate system to track the costs and revenues of timber sales 
and stewardship contracts (GAO-07-764). Has the Forest Service 
developed a formal system to track obligations, expenditures, and 
revenues on a contract-by-contract basis?
    Question 7. When does the Administration expect to finalize a 
comprehensive wildfire aviation strategy?

              Questions for Tom Tidwell From Senator Wyden

    Question 1. Land and Water Conservation Fund--I'm pleased to see 
increased funding for the Land and Water Conservation Fund, which 
assists with preserving important public values. The program ensures 
funding for the Forest Service, among other land agencies, to acquire 
inholdings and other priority land parcels from willing sellers, 
thereby reducing management costs, protecting wildlife habitat, 
reducing the risks and costs of catastrophic wildfires, and ensuring 
public access and recreation. The program has ensured millions for 
Forest Service projects in Oregon alone, including places in the 
Columbia River Gorge and the Hells Canyon National Recreation Area. 
There is a significant economic impact from the recreation that is 
enhanced by these land acquisitions. Active outdoor recreation 
contributes $730 billion annually to the U.S. economy and supports 6.5 
million jobs across the country, including 73,000 jobs in Oregon. I am 
a supporter of legislation to fully fund the Land and Water 
Conservation Fund. In addition to Congressional efforts, how else can 
we ensure that consistent and robust funding for this program will 
continue each year, allowing a lasting outdoor recreation legacy with 
economic opportunities for future generations?
    Question 2. Pacific Crest Trail/Trail Systems Funding--I know that 
a number of items in the Forest Service budget have been moved around 
into new approaches. However, the Agency failed to include funds in 
this year's budget, as in the FY10 budget, for the Pacific Crest 
National Scenic Trail. Administration of the National Scenic Trails is 
an important agency responsibility and much work remains to be done on 
these trails. Can you explain the lack of funding for this trail and 
what the agency is doing to plan for timely completion of protection of 
the Pacific Crest National Scenic Trail experience through acquisition 
of land and easements over time, as directed in the National Trails 
System Act as amended?
    Question 3. Climate Change--I'm pleased to see the Agency's focus 
in this budget on making the nation's forests more resilient and 
resistant to climate change. America's natural resources provide 
tremendous ecosystem services and economic benefits to communities 
across the nation-and safeguarding these resources from climate change 
directly protects key elements of our economy. Can you explain your 
plan for ensuring the Forest Service's budget invests in protecting key 
ecosystem services and job-creating activities from changing climates?

             Questions for Tom Tidwell From Senator Lincoln

    Question 1. Can you tell me the expected timber outputs for the 
Ouachita and Ozark-St. Francis National Forests in Arkansas under the 
proposed Integrated Resource Restoration program? As you know, these 
forests are extremely efficient in offering timber for sale. Will the 
Integrated Resource Restoration program include specific output targets 
for traditional multiple use commodities?
    Question 2. How did the agency come to the conclusion that all 
projects implemented using National Forest Timber Management funds 
needed to generate a positive return to the treasury? Numerous other 
programs, including recreation programs, receive more in appropriations 
than they return in user fees. How does the use of Stewardship 
contracts resolve these issues?
    Question 3. How many Stewardship contracts have you awarded in 
Arkansas? Were they Integrated Resource Service Contracts or Integrated 
Resource Timber Contracts? Did these contracts include convertible 
forest products including sawlogs, or were they entirely non-commercial 
in nature?
    Question 4. You mentioned in your testimony that the Forest Service 
will still track outputs. I'm concerned that this implies you will not 
plan outputs for important programs such as timber, grazing, and 
recreational use. Will you? In regards to timber in particular, I think 
it is important for the agency to report accurately on the wood 
products it is producing. Would you support an effort to have the 
agency report on the percent of wood fiber sold which is convertible 
into traditional wood products such as lumber and paper, and that which 
is sold for biomass energy applications?
    Question 5. I appreciate the efforts you've made to direct funding 
for Fiscal Year 2010 to the timber sale program on the Ouachita and 
Ozark-St. Francis National Forests. Can you report to me on how 
implementation of this spending is going at the forest level? Is the 
agency working to direct carry over and other available funds to these 
forests so that they can continue to perform at a high level?
    Question 6. I appreciate the Administration's efforts to fund the 
Maumelle Water Excellence Project under the Forest Legacy program. Is 
the project high enough on the priority list to be assured of funding 
in Fiscal Year 2011?
    Question 7. You mentioned how important it is to retain the forest 
products infrastructure to help defray the costs of forest management. 
I agree. I don't think you can succeed in retaining this infrastructure 
unless you have a plan in place to do so. Would you agree to work with 
me to ensure that the agency has a national plan in place that ensures 
that each unit of the National Forest System has a complete picture of 
the wood-using industry that is nearby and can help implement forest 
management on those forests?
    Question 8. In today's hearing you stated more than once that you 
believe Stewardship Contracts were a better tool for the Ouachita 
National Forest than the timber sale contract. The forest sells 100 
MMBF of sawtimber and pulpwood each year. It is one of 10 forests in 
the country, according to your staff, that were above costs in 2008-
2009. Are you suggesting that in 2011 these type sales (vegetation 
management) should be part of a stewardship contract with few if any 
commercial sales using timber sale contracts?
    Question 9. In your testimony, you stated that in 2011 you would 
move ahead with the integrated resource line item funding approach and 
that the target would be acres treated but you would also report MBF 
and other data. Since acres treated can be assigned to almost any 
activity will this further dilute accountability for responsible unit 
costs and providing wood essential to maintain mill infrastructure?
    a.Will restoration plans be prepared on a landscape basis (10,000 
to 50,000 acres) and then multiple stewardship contracts and/or timber 
sale contracts be awarded within the landscape?
    b.Will the increased use of ``best value'' or ``sole source'' 
contracts increase shortages at some mills and over abundance at 
others?
    Question 10. As the Chief of the Forest Service, do you believe 
your agency should manage the pine forests on the southern coastal 
plains to keep them healthy, prevent catastrophic beetle attacks, and 
meet the social and economic needs of the stakeholders?
    Question 11. During your testimony, you frequently mentioned how 
the stewardship contract and integrated resource line item would help 
the agency. I am concerned that the agency perceives things differently 
than its customers. It is my understanding that most purchasers of your 
timber make subsequent marketing decisions which, in most cases, 
represent the margin between profit and loss on their sales. How do you 
see this program helping the loggers and mill owners who have 
substantial, multi-million dollar investments in machinery and 
equipment designed specifically to produce certain higher value 
products?

             Questions for Tom Tidwell From Senator Sanders

    Question 1. I am strongly supportive of the proposed budget's $5 
million for the Community Wood Energy Program. I was joined by seven of 
my colleagues on a letter to the Administration seeking this funding, 
and I thank the Administration for including this means of assisting 
communities to develop biomass energy projects. Since this would be the 
first year the Community Wood Energy Program is to be funded, could you 
share the Forest Service's perspective on how it will work and how it 
will benefit communities, including rural communities, across the 
country?
    Question 2. White-Nose Syndrome is a wildlife health crisis of 
grave concern to Vermont, the larger Northeast, and the nation. Vermont 
has lost at least 95 percent of its bats since White-Nose Syndrome was 
first observed within its borders, according to a recent article (``Bad 
news for bats: Deadly white-nose syndrome still spreading'', Scientific 
American, February 20, 2010). Since the first known case occurred in 
2006 in New York, confirmed cases of White-Nose Syndrome have shown up 
in ten states: Connecticut, Massachusetts, New Hampshire, New Jersey, 
New York, Pennsylvania, Tennessee, Vermont, Virginia, and West 
Virginia. Given the decimation of bat populations that we have seen in 
the past few years, it is highly likely that White-Nose Syndrome will 
continue to spread to some of the largest and most diverse bat colonies 
in the nation. If this happens, we risk the possibility of extinction 
of several bat species. We need discrete and dedicated federal funding 
available for combating White-Nose Syndrome and containing its spread 
so we can restore our bat population and maintain their vital function, 
such as insect control, which helps our forests and farms.
    I, along with 12 other Senators and 12 Members of the House of 
Representatives, sent a letter to the Department seeking FY2010 funding 
for researching and eliminating the White-Nose Syndrome which is 
afflicting bats in the Northeast, Mid-Atlantic, most recently the 
South, and possibly elsewhere in the country. Congress did provide $1.9 
million dollars for this for FY2010. I understand there are some 
existing Fish and Wildlife and US Geological Survey programs that may 
provide FY2011 funding for White-Nose Syndrome; however it is unclear 
how much discrete funding White-Nose Syndrome research and control will 
actually receive. What resources will be available in the FY2011 budget 
for cave ecosystem protection and research to combat White-Nose 
Syndrome?

             Questions for Tom Tidwell From Senator Shaheen

    Question 1. I support the Administration's efforts for land 
conservation and its commitment to growing the Forest Legacy program, 
which is receiving a 32% increase from last year's appropriated levels. 
Last year, I led efforts with Senators Leahy, Snowe and Burr to support 
increased funding for important federal land conservations programs, 
such as the Land and Water Conservation Fund (LWCF) and the Forest 
Legacy Program.
    The Forest Legacy program is very important to New Hampshire and I 
was pleased that two of our projects were included in the national 
priorities list. Do you plan to continue to grow the Forest Legacy 
Program in subsequent budget years?
    Question 2. The Interagency Pass Program was created by the Federal 
Lands Recreation Enhancement Act and authorized by Congress in December 
2004. This pass program was created to make it easier for the elderly 
and disabled to visit national parks and forests and it currently 
provides discounted use rates for seniors for activities on Forest 
Service lands. However, I was troubled to hear about a Forest Service 
proposal that would reduce of the discounts from 50% down to about 10% 
for programs and services operated by Forest Service. I have already 
heard from New Hampshire constituents on this matter and I am concerned 
about eliminating the opportunity for our senior and disabled citizens 
to enjoy our public lands at a more affordable rate. What is the 
current status with this proposal and what is the rationale for 
reducing the discount from 50% to 10%?

            Questions for Tom Tidwell From Senator Murkowski

    Tongass Retooling Aid--The Tongass, as recently as 2000, supported 
more than 3,000 timber jobs. Now, a generous estimate is that the 
industry is supporting about 400 jobs given all the delays in timber 
sales resulting from appeals, suits and changes in forest plans. To 
help maintain employment, last year I introduced a Tongass Timber 
Retooling and Restructuring Act to help timber-dependent businesses 
retool to either enter new economic activities not dependent on timber, 
or to change their processes to produce products and services dependent 
on less timber or smaller-growth timber. Unfortunately the bill has not 
come up for a hearing in another committee in the Senate.

    Question 1. Since the goal of the bill seems in keeping with the 
Forest Service's pending ``transition plan'' for Tongass activities, 
can the Forest Service utilize the Department of Agriculture's Rural 
Development Administration to make loans to businesses to help them 
retool to use less timber or to enter new economic fields?

    There is an urgent need for economic assistance to save many of the 
remaining timber jobs in the region. I know at least four firms have 
submitted proposals seeking such aid from the Forest Service/ RDA.
    Question 2. Can you tell the status of your consideration of the 
requests and the timetable for potential assistance, if there is any 
willingness to grant such aid?

    Tongass Futures Roundtable--From a conversation we had late last 
year I know you hope, as do I, that the Tongass Futures Roundtable, 
consisting of environmental, business and a wide assortment of business 
leaders in the region will be able to reach consensus on a plan to make 
enough timber available either under the federal or state system to 
fuel a viable industry, while also selecting more lands for protection 
and restoration in the forest.
    The Roundtable, however, has met for three years and outside of 
supporting the Timber Retooling bill and beach fringe thinning plans, 
it has yet to reach agreement on a broader plan.
    Even if the roundtable were to reach agreement tomorrow, it would 
take considerable time for Congress to review and implement any such 
major revision to Tongass land policies, at least based on the time it 
took to pass and implement the Alaska lands act in 1980 that created 
more than 5 million acres of protected lands in the Tongass, and the 
Tongass Timber Reform Act of 1990 that hiked that number considerably.
    Question 3. What does the Forest Service intend to do to keep an 
industry alive long enough for Roundtable recommendations to perhaps 
aid it?

    Roadless Policy--I appreciate your commitment to defend the Tongass 
Roadless settlement and desire to develop a way to address roadless on 
a local level.
    Question 4. Since the Tongass Roadless settlement was worked out in 
an Alaska court and memorialized in the Tongass Land Management Plan 
which was worked out at the local level (also agreed to by the courts), 
is there any reason for me to worry that the people of the Tongass have 
anymore reason to worry than say the people of Idaho who worked out 
Roadless in that state?
    Question 5. Can you assure me that the Secretary of Agriculture 
will honor the commitment that you made during your testimony at the 
February 24th Energy and Natural Resource hearing?

    Roadless Lawsuit--I also appreciate your commitment to defend the 
Tongass Roadless court settlement.
    Question 6. Can you check to make sure that the Department of 
Agriculture, the Department of Justice, and the White House will also 
make a similar commitment to me?

    Commercial Timber Sales vs. Stewardship Sales--Forest Service staff 
have repeatedly communicated during Senate staff briefings, that only 
those timber sales that will return more revenue than they cost will be 
developed. In the 1990's those sales were called ``below-cost'' timber 
sales.
    Question 7. Am I correct in my understanding that this budget 
proposes to end the use of commercial timber sales that do not return 
more revenue than they cost to plan, prepare, and sell?
    Question 8. Should we expect that you will hold other contracts, 
such as stewardship timber contracts to that same standard?
    Question 9. Can you provide the Committee a list of every 
stewardship contract implemented over the last five years that returned 
more revenue receipts to the Treasury than they cost the Forest Service 
to plan, prepare and sell?

    The preparation of a Stewardship Contract by its very nature takes 
a considerable amount of time and funding that is not charged against 
the cost of accomplishing the non-timber work when the Forest Service 
balances the cost of projects against the value of the timber to be 
removed.
    Question 10. Would you provide me with a detailed accounting of the 
agency's costs to develop, prepare, appraise, offer and administer the 
White Mountain Stewardship Contract on the Apache-Sitgreaves National 
Forest?
    Question 11. Will you provide me with a detailed description of the 
monetary and non-monetary benefits of that stewardship contract?
    Question 12. Can you also provide me a timeline of how long each of 
the following steps took to accomplish: public consultation, NEPA, sale 
preparation, contract preparation, and award?
    Question 13. It is my understanding that the Forest Service is 
considering terminating the White Mountain Stewardship Contract because 
contract costs have escalated too high. What is the situation with that 
contract?
    Question 14. Am I correct in my recollection that the Forest 
Service had to self-fund a million dollar bond to cover its liability 
in the event the agency defaulted that contract?
    Question 15. Was that cost considered as part of the balance of 
costs and revenues? How would your "no below-cost" criteria allow for 
that to happen on future stewardship contracts?
    Question 16. You have indicated that you will use commercial timber 
sale contracts if they are above-cost. Can you help us understand what 
criteria the Washington Office will use to consider a commercial timber 
sale request in an out-year budget from a ``below-cost'' forest? It 
would seem to me that it would be impossible for those forests to 
provide any assurance the sale will be above-cost by the end of the 
convoluted process you have and are putting in place. How will that 
work exactly?
    Question 17. In 2005 and 2006 your staff prepared a budget analysis 
on the cost and revenues of each major resource program in the Forest 
Service. Then Budget Director Lenise Lago delivered a very detailed 
report in a very short time. Would you have your staff update that 
report to include FY 2009 and FY 2010?

    The Forest Service web-site on stewardship contracting includes the 
following statement about stewardship contracting: Does stewardship 
contracting replace the commercial timber sale program?
    No. Stewardship contracting is not a program, but a tool for the 
contracting toolbox to accomplish work on the land as part of the 
Healthy Forests Initiative and to achieve broad land management goals.
    Question 18. Given this budget proposal (including the defunding of 
road construction and road reconstruction); is your web-site statements 
on stewardship contracting still accurate?

    FLAME--Last year Congress authorized the agency to develop a FLAME 
account to pay for the 3% of the fires that result in 95% of the fire 
suppression costs the agency has testified to for the last decade.
    Question 19. Chief do you believe that constitutionally the job of 
the Administration is to implement the laws that Congress passes?
    Question 20. Can you help me understand why the Forest Service has 
chosen to ignore the FLAME Act that was passed last year and continues 
to propose a separate reserve account to pay for fire fighting?
    Question 21. Do you continue to believe that 3% of the fires cause 
90 to 95% of the agency's fire suppression costs?
    Question 22. Can you provide me an explanation of why you have not 
requested that 90 to 95% of the requested fire suppression funding 
within the FLAME account?
    Question 23. Given the budget you have proposed for FY 2011; what 
will happen if you experience another $2 billion fire season?

    Aircraft Modernization--The missing, long awaited Aviation Plan for 
Replacing the Existing contract heavy aircraft firefighting fleet: In 
late FY 2009 the Office of Inspector General (OIG) issued a report on 
the agency's plans to modernize its firefighting aircraft, particularly 
its air tanker fleet. This report contained nine recommendations; the 
Forest Service has completed actions on one and is taking actions on 
the other eight.
    Question 24. What are the most important criteria by which you will 
judge a new, modern platform?
    Question 25. How will you make the decision to contract new 
platforms?
    Question 26. Who will have the final decision on what air tankers 
are approved for contract and what is that decision based upon?
    Question 27. Assuming airworthiness of any new platform is the most 
important criteria for approving a new platform, does the Forest 
Service have an "engineer of record" who can certify airworthiness has 
been met?
    Question 28. Given the current realities of constrained budgets, 
possibly even flat budgets, does the foreseeable horizon mean that 
modernization of equipment including heavy air tankers and acquisition 
of new equipment must also meet cost-containment or even cost-reduction 
goals?
    Question 29. The Forest Service should promote a modernization of 
the fleet of aircraft to increase efficiency and cost-effectiveness, do 
you agree?
    Question 30. If vendors offer to modernize their fleet with newer, 
more efficient equipment, and maintain them in the future with 
sufficient capital investment, would the Forest Service reject that 
approach?
    Question 31. Isn't some redundancy in the aerial firefighting fleet 
prudent to avoid a fleet-wide shutdown if uniform aircraft type is 
found to be deficient for any reason?
    Question 32. If it is, than why is the agency hell-bent on driving 
the existing aircraft out of existence and hell-bent on the C-130J-only 
approach to resolving this problem?
    Question 33. Given that a more agile and modern tanker fleet is 
essential to meeting strategic wild land firefighting needs, is there 
an increasing need for rapid and load efficient aerial responses to 
fires?
    Question 34. Do you believe a new, modern platform aircraft should 
be able to operate from nearly any size airfield, allowing them to 
operate anywhere in the US?
    Question 35. Can you assure me that the C-130J can operate out of 
every one of the airfields currently utilized by the Forest Service and 
BLM for aerial delivery of slurry?
    Question 36. If airfield flexibility is an important component to a 
strategic aerial response, shouldn't the Forest Service include that in 
its consideration of maintaining fleet diversity?
    Question 37. In assessing efficiency and cost-effectiveness, do you 
look at retardant delivery cost/flight of the equipment?
    Question 38. The large airtanker strategy report that the Forest 
Service has been working on for years was supposed to be submitted to 
Congress 60 days after enactment of the FY 2010 Interior and Related 
Agencies Appropriations Act. It is overdue. Where exactly is the report 
today and what date will you personally commit to the Committee that it 
will be provided to us?
    Question 39. The current fleet of large airtankers is aging 
rapidly. The Department's Office of Inspector noted last summer that 
individual aircraft will need to be retired for safety reasons within a 
few years. Do you agree with that assessment?
    Question 40. Can you provide the Committee with the figures of the 
remaining operational service life of each of the large airtankers 
currently in the fleet? Please also provide an estimate of the number 
of years each aircraft could operate base on the five year average use 
data for each aircraft.
    Question 41. In 2004, the Forest Service grounded the large 
airtanker fleet for half of the fire season to develop better safety 
protocols. Backfilling with helitankers and heavy lift type 1 
helicopters added $80 million to that season's aviation costs. If you 
reconfigure your current fleet to use these types of helicopters after 
the large airtankers are retired, how much would that approach add to 
your annual aviation costs?
    Question 42. The large airtankers are primarily an initial attack 
resource. Eighty-five percent of your annual fire suppression expenses 
are consumed by the roughly 2% of the fires that escape initial attack 
and become expensive, large incident fires. Without large airtankers 
how would your initial attack success rate change?
    Question 43. Based upon the cost figures from the past several fire 
seasons, it appears that every 0.1% improvement in initial attack 
success rate would save about $110-120 million in suppression expenses. 
Does that sound about right to you?

    United States Dependence on foreign mineral suppliers-- On February 
18th the Lands Letter reported that the United States Geological Survey 
reported: ``The United States deepened its dependence on foreign 
sources of minerals in 2009, continuing a 30-year trend that some fear 
will only worsen as mining approvals in the West continue to be 
delayed. Meanwhile, the value of domestic mineral production declined 
by 20 percent in 2009, while the value of products domestically refined 
and processed from those minerals dropped by 25 percent, according to a 
report released this week by the U.S. Geological Survey''.
    Question 44. Chief--the National Forests and Grasslands contain 
significant reserves of minerals, as well as oil and gas; are you 
concerned about this trend? And if so, what are you going to do to 
streamline mineral development within the National Forests and 
Grasslands?

    Land Acquisition--The proposed budget includes a proposal to 
increase the land acquisition budget by 16% over the FY 2010 level and 
48% over the FY 2009 appropriated level.
    Question 45. Chief - do you believe the Forest Service's 
maintenance backlog has been completely eliminated as a result of the 
Stimulus funding your agency received last year?
    Question 46. Can you give me a good reason that Congress should 
provide you a single dollar more than what was funding in FY 2009 for 
land acquisition until the maintenance backlog has been completely 
eliminated?
Commercial Timber Sales vs. Stewardship Sales
    Question 47. Your staff has suggested there are approximately 15 
forests that are ``above cost forests.'' Can you provide me a list of 
those forests?
    Question 48. If this budget proposal is accepted by Congress, how 
would you allocate funds from the new Integrated Resource Restoration 
budget line item to forests that are ``below-cost'' forests that 
believe they have an ``above-cost'' sale they may want to offer?
    Question 49. What are the criteria that you will use to describe 
your accomplishments under this Integrated Resource Restoration budget 
line item?

    Tongass Transition Plan--I have been in contact with Jay Jensen, 
the Deputy Under Secretary of Agriculture who oversees the Forest 
Service, and I gather that the Forest Service is working to craft a 
``transition plan'' that will revise the current Tongass Land 
Management Plan to reduce old growth logging and promote timber harvest 
of small diameter trees from existing stands and second-growth areas.
    Question 50. How will it square with the requirements of the 
Tongass Timber Reform Act, a statute that requires the Forest Service 
to make enough timber available for harvest in the Tongass to meet 
``market demand''?

    Human Resources--In 2002 the Forest Service proposed to move most 
of the agency's human resources personnel to a National Service Center 
in Albuquerque, NM. Now we see that you have cancelled some of the 
early-out retirements that were being offered to the few remaining 
Human Resource specialists that had not yet moved to Albuquerque and 
there are rumors that you will not release the FY 2009 carry-over funds 
back to the originating units so that you can pay for moving your Human 
resources specialists out of Albuquerque and back to the forests and 
regional offices from where they came.
    Question 51. If such a plan is in the making, when will this 
happen?
    Question 52. How much is this going to cost to accomplish?
    Question 53. Isn't holding on to carry-over funding for a purpose 
other than what those funds were originally appropriated a breech of 
budget protocol? Will you be requesting a budget reprogramming to 
accomplish this?
    Question 53a. The decision to centralize HR functions must have 
been made in response to problems that were inherent in the previous, 
decentralized system. What specifically were those problems, and why 
are they no longer a concern? Please be specific because if you don't 
convince me that you are familiar with those underlying problems, you 
will leave me with little confidence that they won't recur.
    Question 54. In fact, problems with the old system were documented 
in numerous Forest Service studies and evaluations. As I understand it, 
some of the major problems with the previous, decentralized system was 
that different regions were classifying the same or similar positions 
differently, resulting in employees receiving different levels of 
compensation for the same job. Also, disciplinary practices differed 
from region to region, so that such practices were applied inequitably. 
How will you assure that these situations won't reoccur?
    Question 55. The decision to centralize HR functions was preceded 
by studies that were shared with the Congress as the agency sought to 
justify this approach. No such studies have been presented to the 
Committee to justify going back to a decentralized approach. Where are 
they?
    Question 56. If the Agency returns to decentralized HR functions, 
numerous Forest Service employees will need to be trained annually to 
provide these functions. What is your estimate of the annual cost of 
such training, and how will it differ from your current training costs 
in this area?
    Question 57. What will the Forest Service do with the space 
currently occupied by the HR employees in the Albuquerque Service 
Center? If your current lease will need to be modified, what will be 
the cost to the government?
    Question 58. he most common complaint lodged against the 
Albuquerque Service Center is that common and easy HR functions (eg, 
Hiring) take too long. That is different than taking the necessary time 
to get the complicated and broadscale issues (eg, job classifications) 
right. Have you looked at an option that returns the easier, less 
specialized functions to the field, keeping the more complex functions 
under the centralized purview of HR specialists?
    Question 59. I am concerned that such a re-organization could delay 
the processing of the many EEO and civil rights complaints currently 
languishing in Albuquerque. Would you provide the Committee a list of 
each such complaint which shows in general terms the type of complaint 
it is and how long it as been since the complaint was filed. And then a 
second list with the same information that show the number of 
complaints that were in process for the five years before HR was first 
moved to the Service Center.
    Question 60. The agency has agreements with the Bureau of Land 
Management for some programs like the Joint Fire Science Program that 
carry-over funds must go back to the joint fire science program for 
redistribution or to pay for the projects that were awarded but not yet 
completed. Will you commit to me that you will order your Budget 
Director to return the carry-over funds back to the joint fire science 
program immediately?

    Joint Fire Science Program--Congress has appropriated approximately 
$8 million per year to the Forest Service and $6 to $8 million per year 
to the Bureau of Land Management to allow the two agencies to undertake 
cooperative research on fire.
    Question 61. At present the BLM has 3 employees stationed in Boise, 
Idaho that it funds to help run the program and the Forest Service has 
but one employee that it funds for that program. Given that the Forest 
Service gets more funding, why does it only have one employee in Boise 
it is willing to pay for?

    In 2005 the Chief made a number of commitments to the Bureau of 
Land Management in a letter to that agency regarding the Joint Fire 
Science Program that appear to not have been fully carried out.
    Question 62. Have you and are you still providing quarterly updates 
that account for each joint fire project that has been awarded to the 
Forest Service? If so, please provide the Committee with copies of 
those quarterly reports.
    Question 63. That letter said the Chief understands the multi-year 
nature of the Joint Fire Science program and ``will make every effort 
to respect the Joint Fire Science Board on carry-over for these multi-
year projects''. You have had your budget since November 2009 for 
Fiscal Year 2010 why have the research joint fire science carry-over 
funds not been released?
    Question 64. The letter indicated that the Washington Office 
Research and Development group will coordinate with the Regions, 
Stations, and Areas to verify the carryover for each project and ensure 
the carryover list is highlighted to Washington Office Program and 
Budget Analysis staff for the purpose of ensuring steps are taken to 
re-allocate the Joint Fire Science Program carry-over funds and to get 
them distributed in a timely manner. Given the near 5 month lag in 
getting this done, would you please explain what the Chief meant by 
``timely''?
    Question 65. Given the apparent lack of interest in this program, 
displayed through the Forest Service's unwillingness to help track the 
funds and manage the reporting of these funds, is there any reason this 
program, and its funding, shouldn't be handed over to the Bureau of 
Land Management?

    Montana Roadless Area Management--As Regional Forester you made the 
decision to manage all Roadless Areas in Region One as if they are 
wilderness until such time as Congress directs otherwise.
    Question 66. s there any truth to the rumor that you may direct 
that policy be applied in all regions?
    Question 67. Given that many of these areas now contain roads that 
are used by the public and also by federal fire fighters; are you not 
concerned that your Region One Roadless Area management policy will 
negatively impact your agency's ability to effectively carry-out 
initial attack of fires on those lands?
    Question 68. Can you provide me with a legal white paper which 
describes the law or regulation in which you based your Region One 
Roadless area management policy?

    Montana Wilderness Bill--Our Committee is currently negotiating the 
Montana Forest Jobs and Recreation Act and representatives of the 
Forest Service Washington Office and Region One's wilderness teams have 
participated in those meetings. The Decision Notice for the Beaverhead-
Deerlodge National Forest states: ``Tom Tidwell, the Regional Forester 
for the Northern Region, signed the Record of Decision (ROD) choosing 
Modified Alternative Six in the corrected Final Environmental Impact 
Statement as the Revised Land and Resource Management Plan for the 
Beaverhead-Deerlodge National Forest on January 14, 2009.''
    That plan indicates that the West Pioneer area are not recommended 
for Wilderness. Yet, Senator Testor's bill proposes Wilderness status 
for that area (totaling approximately 25,000 acres).
    During a recent meeting your staff recommended enlarging the 25,000 
acres proposed Wilderness in that area in the Tester bill to 
approximately 50,000 acres, despite the Record of Decision that you 
signed recommending the area does not qualify as Wilderness.
    Question 69. Chief, how much did it cost the agency to complete the 
Beaverhead-Deerlodge National Forest Plan Revision?
    Question 70. Can you give me one good reason why your staff would 
have expressly recommended additional Wilderness in an area that the 
forest plan that you signed says does not qualify as Wilderness?
    Question 71. If the employees that you supervise think so little of 
the Forest plan that you signed, why should we provide the agency you 
oversee a single dime for the forest planning efforts you seek to have 
Congress fund?
    Question 72. What is the shelf-life of the forest plans that you 
are currently working to complete? Are they good for 6 months? Or a 
year? Or are they not worth the paper they are written on?

    Above-Cost Forests--In your statement at the hearing, you affirmed 
that you will only use the commercial timber sale contract tool on 
sales that are ``above-cost''.
    Question 73. Would you provide me a list of which forests where 
above cost in terms of their forest products programs in each of the 
following years: 1988, 1998; 2008 and 2009?
    Question 74. Would you provide me a list (number of sales and 
volume sold) of the above cost timber sales on those forests that are 
considered to be ``below-cost'' forests for FY 2008, 2009, and 2010?
    Question 75. Would you provide me with your reasons for wanting to 
impose the below-cost criteria on the commercial timber sale program, 
but not on any of the other programs carried out by the Forest Service?
    Question 76. When was the last fiscal year that the Forest Service 
returned more revenue to the Treasury than it cost to operate?
    Question 77. In 2012, the counties will receive there last Secure 
Rural Schools payments. The payment history for the 25% payment program 
shows that commercial timber sales generated up to 97% of all payments 
made under that program in the 1960's, 1970,s and most of the 1980's. 
By law Stewardship Contracts do not have to share gross or net receipts 
with the counties. How do you think the county commissioners will react 
to a no commercial timber sale policy by your agency?

    Rain Forest Aerial Trams Alaska, Inc: We have a constituent letter 
from the Rain Forest Aerial Trams Alaska, Inc. Saying they gave the 
forest $41,176 on or around September 2, 2007 to pay the Forest Service 
to complete an EA on their requested permit and to date neither the EA 
nor the permit have been forthcoming.
    Question 78. Can you look into this and advise me of the status? I 
need to know if they really gave the FS the money, what they were 
advised the time-line might be to complete the work, and where in the 
process the EA and or permit are?
    Question 79. Additionally, it is my understanding that the permit 
they are requesting falls within a Roadless Area. Please explain to me, 
given the Secretary of Agriculture's policy on development in any 
Roadless Area why an EA is sufficient and whether you will treat 
recreations projects in the same manner you seem to be treating timber 
projects in these areas?

            Questions for Tom Tidwell From Senator Barrasso

    Question 1. In Fiscal Year 2010, Secretary Vilsack allocated $40 
million to the Rocky Mountain Region to combat the devastating effects 
of bark beetles. $10 million of that funding came from the region's 
normal budget. $30 million of that funding were added to the region's 
budget allocation. This was a welcome and necessary step toward meeting 
our region's needs during this unprecedented natural disaster. However, 
I do not see a budget allocation for the Rocky Mountain Region's 
disaster mitigation for next year. How is U.S. Forest Service going to 
make resources available to protect the people of Colorado, Wyoming and 
South Dakota from the effects of bark beetles?
    Question 2. I recognize that some competitive programs for forest 
restoration are available. However, these funds are not committed to 
any one purpose or region. The Forest Service' own experts projected 
that it would require $45 million in fiscal year 2010 and $55 million 
in fiscal year 2011to mitigate bark beetle effects in Region 2. How is 
the agency going to guarantee that this level of funding is provided?
    Question 3. I am also concerned about the distribution of funds for 
bark beetle mitigation. I read in the USFS press release at there are 
3.6 million acres of bark beetle infestation in Colorado. But I noticed 
that no one talked about the 3.4 million acres of infestation in 
Wyoming. And no one talked about Colorado receiving $30 million of the 
funding for bark beetle mitigation, when Wyoming only received $8 
million. I understand that Colorado may have more roads to clear, and 
that there could be some discrepancy there. However, Wyoming's 
watersheds, recreation, and wildfire needs are no less than our 
neighbors to the south. If these two states have nearly equal affected 
acreage, why is your agency's strategy for addressing infestation not 
equitable?
    Question 4. Sawmills are dwindling in the American West. There is 
only one left in Wyoming. America and rural communities across the West 
cannot afford to lose any of these business. Your agency will be 
without management partners during a forest health crisis. How is the 
Administration promoting the health of the forest products industry?
    a. How are you supporting your partners during these tough times?
    Question 5. You have proposed that nearly all timber harvest be 
facilitated through stewardship contracts, rather than timber sales. I 
am concerned that this new proposal ignores business conditions for the 
sawmills operating in today's economic climate. The industry is hard-
hit by the recession and increasingly tight lumber markets. Raising 
capital to change sawmill capacity and operations during this economic 
downturn could cripple small businesses. The Administration may have 
changed in Washington, but the reality of the forest products industry 
remains. How will your proposal for Integrated Resource Restoration to 
promote the success of sawmills we have in operation today?
    Question 6. The Forest Service budget proposal would eliminate 
funds for constructing or upgrading roads. How do you expect to meet 
the President's goals for renewable energy generation and transmission 
if you cannot access new lands to construct windmills or powerlines?
    a. Should we assume that your agency plans to refuse all renewable 
energy development?

             Questions for Tom Tidwell From Senator McCain

    Question 1. Stewardship contracts are a crucial tool to the Forest 
Service to accomplish effective, quality forest restoration in 
partnership with industry that can spur industry investment and create 
rural economic opportunities. Specifically these contracts are 
attractive because they offer industry some certainty of supply, 
enabling investment in costly wood processing infrastructure. But such 
contracts require a substantial obligation of funds to protect the 
contractor's investment if the government later cancels and rarely, if 
ever, is the value of the timber removed sufficient to pay for the 
work. Both of these financial challenges are particularly stark in the 
southwest where the current state of the wood-based industry is one 
that is nearly extinct and few suitable markets exist for the small-
diameter wood, the primary by-product of restoration. The Forest 
Service budget calls for more stewardship contracts. Please explain how 
the Forest Service will address these financial challenges associated 
with Stewardship contracts going forward, particularly as they apply in 
the southwest.
    Question 2. Arizona is the home of the White Mountain Stewardship 
Contract, the only active long-term (10-year) US Forest Service 
stewardship contract - and the first of its kind in the United States. 
This contract has seen nearly 100,000 acres of NEPA work completed with 
no lawsuits and restoration thinning costs have been cut in half. The 
contract has generated over 450 new full-time jobs, and is helping 
build back a severely depressed rural regional economy. Despite these 
successes and the Forest Service emphasis on stewardship contracts, it 
has been reported that the Forest Service is not planning to fully 
implement the contract in FY 2011. Is this true? What are the Forest 
Service's plans and budget regarding the White Mountain Stewardship 
Contract in FY 2011?

            Questions for Tom Tidwell From Senator Sessions

    Question 1. Why is the S&PF Cooperative Fire Protection and Wild 
land Fire Management - State Fire Assistance reduced by $25.04 million 
from the FY 2010 Enacted Budget?
    Question 2. Why is the Forest Legacy Program increased by over 30% 
while other programs that serve thousands of non-industrial private 
landowners are flat to lower than the FY 2010 budget? As an example, 
the Alabama Forestry Commission receives about $400,000 annually 
(requires a 50/50 match) to assist forest landowners with the 
management of their forest. There are over 400,000 forest landowners in 
the state, the current funding falls short of the states need.
    Question 3. With the emphasis and importance on Forest Health, why 
is funding being cut by over $7 million?
                                 ______
                                 
             Questions for Tom Tidwell From Senator Lincoln

    Question 1. Can you tell me the expected timber outputs for the 
Ouachita and Ozark-St. Francis National Forests in Arkansas under the 
proposed Integrated Resource Restoration program? As you know, these 
forests are extremely efficient in offering timber for sale. Will the 
Integrated Resource Restoration program include specific output targets 
for traditional multiple use commodities?
    Question 2. How did the agency come to the conclusion that all 
projects implemented using National Forest Timber Management funds 
needed to generate a positive return to the treasury? Numerous other 
programs, including recreation programs, receive more in appropriations 
than they return in user fees. How does the use of Stewardship 
contracts resolve these issues?
    Question 3. How many Stewardship contracts have you awarded in 
Arkansas? Were they Integrated Resource Service Contracts or Integrated 
Resource Timber Contracts? Did these contracts include convertible 
forest products including sawlogs, or were they entirely non-commercial 
in nature?
    Question 4. You mentioned in your testimony that the Forest Service 
will still track outputs. I'm concerned that this implies you will not 
plan outputs for important programs such as timber, grazing, and 
recreational use. Will you? In regards to timber in particular, I think 
it is important for the agency to report accurately on the wood 
products it is producing. Would you support an effort to have the 
agency report on the percent of wood fiber sold which is convertible 
into traditional wood products such as lumber and paper, and that which 
is sold for biomass energy applications?
    Question 5. I appreciate the efforts you've made to direct funding 
for Fiscal Year 2010 to the timber sale program on the Ouachita and 
Ozark-St. Francis National Forests. Can you report to me on how 
implementation of this spending is going at the forest level? Is the 
agency working to direct carry over and other available funds to these 
forests so that they can continue to perform at a high level?
    Question 6. I appreciate the Administration's efforts to fund the 
Maumelle Water Excellence Project under the Forest Legacy program. Is 
the project high enough on the priority list to be assured of funding 
in Fiscal Year 2011?
    Question 7. You mentioned how important it is to retain the forest 
products infrastructure to help defray the costs of forest management. 
I agree. I don't think you can succeed in retaining this infrastructure 
unless you have a plan in place to do so. Would you agree to work with 
me to ensure that the agency has a national plan in place that ensures 
that each unit of the National Forest System has a complete picture of 
the wood-using industry that is nearby and can help implement forest 
management on those forests?
    Question 8. In today's hearing you stated more than once that you 
believe Stewardship Contracts were a better tool for the Ouachita 
National Forest than the timber sale contract. The forest sells 100 
MMBF of sawtimber and pulpwood each year. It is one of 10 forests in 
the country, according to your staff, that were above costs in 2008-
2009. Are you suggesting that in 2011 these type sales (vegetation 
management) should be part of a stewardship contract with few if any 
commercial sales using timber sale contracts?
    Question 9. In your testimony, you stated that in 2011 you would 
move ahead with the integrated resource line item funding approach and 
that the target would be acres treated but you would also report MBF 
and other data. Since acres treated can be assigned to almost any 
activity will this further dilute accountability for responsible unit 
costs and providing wood essential to maintain mill infrastructure?
    a.Will restoration plans be prepared on a landscape basis (10,000 
to 50,000 acres) and then multiple stewardship contracts and/or timber 
sale contracts be awarded within the landscape?
    b.Will the increased use of ``best value'' or ``sole source'' 
contracts increase shortages at some mills and over abundance at 
others?
    Question 10. As the Chief of the Forest Service, do you believe 
your agency should manage the pine forests on the southern coastal 
plains to keep them healthy, prevent catastrophic beetle attacks, and 
meet the social and economic needs of the stakeholders?
    Question 11. During your testimony, you frequently mentioned how 
the stewardship contract and integrated resource line item would help 
the agency. I am concerned that the agency perceives things differently 
than its customers. It is my understanding that most purchasers of your 
timber make subsequent marketing decisions which, in most cases, 
represent the margin between profit and loss on their sales. How do you 
see this program helping the loggers and mill owners who have 
substantial, multi-million dollar investments in machinery and 
equipment designed specifically to produce certain higher value 
products?


</pre></body></html>
